<html>
<title> - PRINCIPLES OF U.S. ENGAGEMENT IN ASIA</title>
<body><pre>[Senate Hearing 111-708]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-708
 
                 PRINCIPLES OF U.S. ENGAGEMENT IN ASIA 

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON EAST ASIAN 
                          AND PACIFIC AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 21, 2010

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

62-189 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
















                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

         SUBCOMMITTEE ON EAST ASIAN AND PACIFIC AFFAIRS        

                  JIM WEBB, Virginia Chairman        

CHRISTOPHER J. DODD, Connecticut     JAMES M. INHOFE, Oklahoma
RUSSELL D. FEINGOLD, Wisconsin       JOHNNY ISAKSON, Georgia
BARBARA BOXER, California            JOHN BARRASSO, Wyoming
ROBERT P. CASEY, Jr., Pennsylvania   ROGER F. WICKER, Mississippi
KIRSTEN E. GILLIBRAND, New York

                              (ii)        

























                            C O N T E N T S

                              ----------                              
                                                                   Page

Campbell, Hon. Kurt M., Assistant Secretary of State, Bureau of 
  East Asian and Pacific Affairs, Department of State, 
  Washington, DC.................................................     5
    Prepared statement...........................................     8
    Responses to questions submitted for the record by Senators:
        Richard G. Lugar.........................................    43
        Barbara Boxer............................................    48
        James M. Inhofe..........................................    51
Herman, Robert, Director of Programs, Freedom House, Washington, 
  DC.............................................................    23
    Prepared statement...........................................    26
Inhofe, Hon. James M., U.S. Senator from Oklahoma, prepared 
  statement......................................................     5
Sutter, Robert, Visiting Professor of Asian Studies, Georgetown 
  University, Washington, DC.....................................    30
    Prepared statement...........................................    33
Webb, Hon. Jim, U.S. Senator from Virginia, opening statement....     1

                                 (iii)




                 PRINCIPLES OF U.S. ENGAGEMENT IN ASIA

                              ----------                              


                       THURSDAY, JANUARY 21, 2010

                               U.S. Senate,
    Subcommittee on East Asian and Pacific Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Jim Webb, 
(chairman of the subcommittee) presiding.
    Present: Senator Webb.

              OPENING STATEMENT OF HON. JIM WEBB,
                   U.S. SENATOR FROM VIRGINIA

    Senator Webb. Good morning. The hearing will come to order.
    There's an old saying in the Marine Corps, that a lot of 
times when you are up to your neck in alligators, you tend to 
forget that you came to drain the swamp. This is something of a 
parallel, in terms of our foreign policy, and in places like 
Asia, particularly.
    Today the East Asian and Pacific Affairs Subcommittee will 
begin examining a long overlooked area of our foreign policy 
rooted in the often contradictory standards we've used in the 
past and, to some extent, still use today, in defining the 
underlining parameters of our relationships with different 
countries and different governmental systems. Nowhere are these 
contradictions more glaring than in Asia, and nowhere is it 
more important that we clarify the basic tenets that shape our 
engagements.
    As such, I believe, that the time has come to undertake a 
comparative assessment of how our policies toward Asian 
governments effect our relationships, not only in the region, 
but also in the rest of the world.
    Our bilateral relations with different countries have 
evolved incrementally over many decades, and in some cases over 
more than two centuries. They've been driven by the 
consequences of war, by the emergence of new government 
structures in other countries, and by geopolitical necessity. 
Collectively, their origin, founding principles, and the 
resulting governments have varied. Ours do not.
    The fundamental political principles underlying the 
founding and growth of our country have remained constant. It's 
important, for our credibility and for international stability, 
that our foreign policy also be seen as consistent, 
predictable, and firm.
    History shows that consistency breeds predictability so 
that our friends can stand with us, our potential adversaries 
can measure the potential for disagreement, and those who 
aspire to better relations with us will have a clear idea of 
the road to follow. Inconsistency breeds not only disrespect 
for our standards and disbelief in our motives, but also 
detracts from the long-term effectiveness of our foreign policy 
goals.
    Asia is a composite of political and economic systems, 
demographic and geographic disparities, and historic rivalries. 
Many nations in this region are far older than the United 
States, ancient in their traditions, and driven by cultural 
forces that date back thousands of years. At the same time, the 
governmental structures in some of these countries have been 
affected by the impact of colonialism. Others have been born 
out of the conflicts of the last century. Many of these same 
countries are still disputing the final demarcation of their 
own boundaries. Perceptions of active security threats remain 
alive. Relations with the United States have been shaped by all 
of these factors, and it is natural, to a certain point, that 
we would have a different set of relations and differing 
benchmarks with nations that have undergone such varying 
evolutions.
    It also should be pointed out that the economic reforms 
since World War II, and especially over the last 30 years, have 
caused Asia to become more cohesive, economically, and, to 
greater and lesser degrees, interdependent. Cooperation, as a 
whole, has strengthened, evidenced most recently by such 
regional efforts such as the China-ASEAN Free Trade Agreement 
that went into effect this month. Millions of Asians have taken 
advantage of new economic opportunities during these past 
decades and have risen out of poverty.
    This period had also seen the growing recognition of the 
importance of Asia to our own national interests. Six of our 
top fifteen trade partners are located in East Asia. Eight of 
the top twenty holders of U.S. Treasury securities are located 
in Asia, with China, Japan, Hong Kong, and Taiwan among the top 
10. The United States maintains several security alliances in 
Asia that are the key to preserving regional stability and 
balance, and other partnerships in that region to counter 
emerging global threats of nuclear proliferation, terrorism, 
and narcotics trade.
    Given all of this change and political evolution, it is 
absolutely vital that the United States communicate a sense of 
purpose and consistency in its dealings with every nation.
    There's no country in the world to which we are more 
vulnerable, strategically and economically, than China. The 
risks we face are illustrated by China's recent cyber attacks 
against government and business organizations, such as Google; 
by its military interceptor tests on January 11; by its 
expanding military activities in the South China Sea; and by 
the growth of its foreign reserves to $2.4 trillion at the end 
of 2009, despite the global recession. Moreover, it serves well 
to remember that the Chinese Government does not allow national 
elections; opposition parties are illegal; political dissidents 
and their lawyers are regularly imprisoned; and Internet 
censorship is routine.
    And yet, our burgeoning relations with China have not been 
preconditioned on the nature of its internal political system, 
nor its actions beyond its borders. This is not an allegation, 
it is a statement--a recital of facts.
    There are other notable instances that seem to contradict 
or to call into question our efforts at maintaining consistency 
in our relations with other Asian nations. While sharing a 
strong trade relationship and a burgeoning political 
relationship with Vietnam, despite its failure to abide by its 
agreement in the 1973 Paris Peace Accords to hold national 
elections, we have asserted in the past, that free elections in 
Cambodia were necessary to end the 10-year Vietnamese 
occupation of that country. Thailand has, on occasion, been 
penalized by our Government for its struggles with elective 
politics. And while, most recently, Burma's military junta has 
confirmed its intent to hold an election this year and to allow 
opposition parties to form, we have been slow to engage the 
government. Many are opposed to any support for this effort, 
because it does not represent full democracy.
    As these examples illustrate, it is important to reiterate 
that inconsistencies inherent in our policies toward different 
governments tend to create confusion, cynicism, and allegations 
of situational ethics. There may be valid reasons for these 
disparities, and I look forward to hearing discussion of these 
issues in today's testimonies.
    But, as a retired Indian diplomat recently commented in the 
Asia Times, ``Central Asian countries see Western discourse on 
democracy and human rights as doublespeak from countries that 
pander to authoritarian regimes without scruples when it suits 
their business interests. Furthermore, the sanctions and other 
restrictions that the United States places on smaller 
countries, for internal political acts that are not 
demonstrably different than those of the Chinese Government 
itself frequently leads those countries to succumbing to 
greater influence from China itself.''
    For example, after an attempted coup in 1997, directed at 
Cambodia's elected Prime Minister Hun Sen, our Government 
slapped a ban on direct assistance to that government for the 
harsh measures that it applied to defeat the rebels. This may 
have been justified, but the Chinese immediately backed Hun 
Sen's government, tossed in $3 million in military aid, and, 
since then, China has overtaken all countries in donor aid to 
Cambodia, including having donated $256 million last year. This 
observation is especially relevant as Congress and the 
administration consider an appropriate diplomatic response to 
the recent deportation of 18 Uyghurs from Cambodia to China. 
This was done at China's assistance, and was also sweetened by 
the Chinese Government's giving $1.2 billion in additional aid 
to Cambodia. Most people conclude that Cambodia had no choice 
in this matter, because the Chinese presence in that country, 
at all levels, is so pervasive.
    The State Department's reaction, thus far, has been to 
condemn Cambodia for its deportation of political refugees, 
without publicly confronting the Chinese for having levied that 
demand on Cambodia.
    Nowhere is this more obvious than in Burma, where Chinese 
influence has grown steadily, at a time when the United States 
has cut off virtually all economic and diplomatic relations. 
Since the tightest restrictions were placed on Burma, Chinese 
arms sales and other military aid has exceeded $3 billion. 
Other public and private Chinese aid has been in the form of 
billions in interest-free loans, grants, concessional loans, 
and debt relief. There also have been numerous low-interest 
loans, tens of millions of dollars of which have gone to 
stabilize Burma's currency. And as only one example of China's 
enormous investment reach, within the next decade China is on 
track to exclusively transfer to its waiting refineries both 
incoming oil and locally tapped natural gas via a 2,380-
kilometer pipeline across Burma.
    These examples, and more, illustrate that American 
sanctions and other policy restrictions have not only increased 
Chinese political and economic influence in Southeast Asia, 
they have, ironically, served as a double reward for China, 
because all the while American interaction in East Asia has 
been declining.
    So, the ultimate question becomes, What standards should 
the United States apply in its relations with countries that do 
not share its belief in free and open political systems? And a 
second question follows. If we are to communicate and uphold 
these standards, under what conditions should they not apply to 
certain countries? These are not idle intellectual questions, 
they go to the heart of how America sees itself and also how 
America is viewed around the world.
    In order to address these issues, today we are pleased to 
have with us Assistant Secretary Kurt Campbell. Prior to his 
confirmation in June 2009, Assistant Secretary Campbell was the 
CEO and cofounder of the Center for a New American Security, 
and concurrently served as director of the Aspen Strategy 
Group. He has served in several capacities in government, 
including as Deputy Assistant Secretary of Defense for Asia and 
the Pacific, a director on the National Security Council staff, 
Deputy Special Counselor to the President for NAFTA in the 
White House, and as a White House fellow.
    Following Secretary Campbell's testimony, we will begin our 
second panel with Dr. Robert Sutter, of Georgetown University, 
and Dr. Robert Herman of Freedom House.
    Dr. Sutter is visiting professor of Asian studies at the 
School of Foreign Service at Georgetown. Prior to this 
position, he specialized in Asian and Pacific affairs and U.S. 
foreign policy and an American Government career spanning 33 
years. He's published 17 books, numerous articles, and several 
hundred government reports dealing with contemporary East Asian 
and Pacific countries and their relations with the United 
States, including his most recent book ``The United States in 
Asia.''
    Dr. Robert Herman is presently director of programs for 
Freedom House. He has traveled extensively throughout Asia over 
the past 20 years as both an NGO representative and also as a 
U.S. Government official. He has more than 25 years of 
experience in democracy promotion and human rights. And his 
work in Asia has taken him to India, Nepal, Bangladesh, China, 
Japan, South Korea, Sri Lanka, and Thailand.
    And, gentleman, all three of you, we appreciate your coming 
today, and we look forward to these discussions.
    And at this time, I would like to introduce into the record 
a statement of Senator Inhofe, the ranking Republican on this 
committee, who is, at this moment, at an Armed Services 
Committee hearing, may come later, but we would like to 
introduce his statement at this point.
    [The prepared statement of Senator Inhofe follows:]

 Prepared Statement of Hon. James M. Inhofe, U.S. Senator From Oklahoma

    Thank you Chairman Webb, for holding this timely hearing to examine 
U.S. engagement in Asia. I welcome the opportunity to hear from the 
witnesses today--and especially from Assistant Secretary Kurt 
Campbell--about our policies toward various Asian governments, and what 
standards the United States should apply in its relations with 
countries that share our beliefs in free and open political systems, 
and with those that do not.
    According to the just released 2010 Index of Economic Freedom 
published by The Heritage Foundation, Hong Kong, Singapore, Australia, 
and New Zealand hold the top four positions as possessing the greatest 
``economic openness, regulatory efficiency, rule of law, and 
competitiveness'' out of the 179 countries ranked. Japan and Taiwan 
rank 19 and 27th respectively. While South Korea (27), India (124), 
Thailand (66), Sri Lanka (120), Malaysia (59) Indonesia (114) and the 
Philippines (109) reflect a wide swing in rankings, the nondemocratic, 
totalitarian regimes of China (140), Vietnam (144), Laos (138), Burma 
(175) and North Korea (179) hold the lowest rankings in the region.
    Though not a precise indicator of democratic governance in East 
Asia--such a ranking would have to include factors like poverty levels, 
public health spending, literacy, transparency of electoral systems and 
respect for human rights--it gives a snapshot of how many of this 
region's nations have progressed, and unfortunately how many have 
regressed.
    It is a mixed result, and as such U.S. foreign policy must be 
sophisticated and nimble enough to utilize multiple approaches to 
further U.S. national security interests in East Asia. Realpolitic, 
unipolarity, pragmatism; whatever diplomatic strategy is implemented, 
it must also adhere to our core American values. That includes the 
pursuit of capitalism and free enterprise, but also respect for 
individual freedoms and basic human rights ensured through democratic 
institutions.
    I will be particularly interested in hearing the witnesses' 
comments regarding the U.S. relationship with China. Although the 
United States carries on a robust trading relationship with China, it 
is the Chinese Communist government which holds the largest share of 
U.S. debt, possesses foreign exchange reserves in excess of $2 trillion 
and maintains a major trade imbalance with the United States. This 
Communist regime also continues to rely on repression and brutality to 
maintain its rule, continues to suppress political rights, such as free 
speech, press, and assembly--the censorship of Google is only the 
latest example--and violates basic human rights. This includes the 
Chinese crackdown on Tibetans and religious groups such as the growing 
Christian population and the Falun Gong. And women still face forced 
abortion and sterilization as part of China's enforcement of its one-
child policy.
    I applaud President Obama when he spoke of respecting ``fundamental 
human rights'' on his recent trip to China, but I am still waiting to 
see if any actions have been taken by either the Communists or the 
Obama administration to address this crucial issue. Could it be that 
U.S. foreign policy directed at China is weighted too much in favor of 
capitalism and free enterprise and not enough in support of respect for 
individual freedoms and basic human rights?
    I would very much like a response to this question from each of the 
witnesses.
    Mr. Chairman, I again thank you for holding this hearing and 
commend you for creating a welcoming forum where open, frank, and I am 
sure productive discussion will occur.

    Senator Webb. And, Secretary Campbell, we greatly 
appreciate your taking the time to be with us today, and the 
floor is yours.

  STATEMENT OF HON. KURT M. CAMPBELL, ASSISTANT SECRETARY OF 
STATE, BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Mr. Campbell. Mr. Chairman and staff, thank you very much 
for the opportunity to appear before you today. And thank you 
very much for your continuing leadership on Asian issues.
    I'm very grateful for the chance to lay out, at a strategic 
level, at the outset, the goals and ambitions of the Obama 
administration, when it comes to Asia.
    I'd would like to suggest that I put my testimony into the 
record and then proceed with some specific comments----
    Senator Webb. Without objection, your full statement will 
be entered into the record at this time.
    Mr. Campbell. Thank you. And then we can get down to some 
specifics, if we could, Senator Webb.
    First of all, just at a very strategic level, Senator Webb, 
I would suggest to you one area that we are in profound 
agreement is the issue about American engagement in the region. 
I think if you ask many Americans today what is the central 
focus, regionally, of American foreign policy, they all would 
say it is South Asia. Now, there are obvious reasons. We have 
huge stakes in the ongoing challenges in Iraq, Afghanistan, and 
Yemen and elsewhere, but I would imagine, that in 20 or 25 
years, when we look back on this period, I think it will be 
very clear that the central arena of historical and strategic 
challenges and opportunities for the United States is actually 
in the Pacific and that one of the things that President Obama 
and Secretary Clinton, Secretary Gates, I think, recognized, at 
the outset of a new administration, is that the United States 
needed to step up its game in Asia.
    Now, occasionally there have been suggestions that this has 
been a discontinuity with previous administrations, in terms of 
the overall focus. I do not think that's the case. I think 
there is a strong bipartisan commitment to Asia, with specific 
steps and values that have animated our overall engagement for 
decades. I think the biggest change in the Obama administration 
has been an attempt to step up the intensity, to step up the 
level and the frequency of engagements. And one of the things 
that we've seen over the course of the last several months are 
high-level visits, not only of the Secretary's four trips to 
Asia during her first year, although the fourth was slightly 
aborted because of the ongoing challenges in Haiti; a 
Presidential trip to our treaty allies in China during his 
first year, and plans for subsequent travel; and then a number 
of initiatives, many frankly, influenced by your own 
encouragement; an attempt to put in place a more pragmatic 
approach, in terms of diplomacy toward Burma; the Secretary 
signing the Treaty of Amity and Cooperation; an intention on 
the part of the United States to play a more active role in the 
multilateral institutions of Asia; a recognition that in the 
1990s, most of that architecture was transpacific, suggesting a 
strong role for the United States and more recently, I think, 
that some of the movements and dynamics
were more Pan-Asian; and the very clear intention, made 
specific when the Secretary was in Hawaii last week, that the 
United States wants a more active role in the multilateral 
frameworks that are emerging in Asia; a very substantial 
attempt at comprehensive partnership with Indonesia; and the 
first-ever U.S.-ASEAN summit.
    I think, in addition, the administration's putting 
together--some would say that it's taken a while--but has put 
together an economic and trade strategy associated with both 
the Trans Pacific Partnership and Korea Free Trade Agreement. 
We can talk about those dimensions in our give-and-take. And, I 
think, also an attempt to put forward a comprehensive strategy 
for dealing with and engaging China, one of the most 
complicated, challenging bilateral relationships that the 
United States is involved in. It has many different facets, as 
you have already underscored, Senator.
    And so, I think there has been a recognition that the 
United States needed to step up its game. And I think we have 
attempted to do so in the Asia-Pacific region, overall. And I 
think there is a sense, in Southeast Asia, with our allies and 
with China, that the United States is, in fact, in the midst of 
that as we go.
    I think you have also underscored, Senator, and we 
recognize, that Asia is a tremendously diverse region. There 
are varying degrees of political, economic, and strategic 
developments. Issues associated with democratization, human 
rights are a mixed bag, frankly. And, in fact, in many 
countries, some of which you have indicated, we have seen some 
backtracking. And some of that backtracking is worrisome.
    Toward that overall picture, I think the United States 
under not just this administration, but previous 
administrations, had attempted to put together a coherent 
overarching regional strategy that recognizes the diverse 
ingredients that make up this dynamic region and to recognize 
that the overall strategy requires a diverse toolbox.
    And, if I might just say, as we speak now, Senator, 
Secretary Clinton is giving a speech on Internet freedom, which 
is actually, in many respects, designed to deal with this new 
tool and the role that it has played in developing openness in 
a variety of countries globally, not just in the Asia-Pacific 
region. And, of course, the issue of Google in China will 
figure prominently in her overall remarks.
    I think we recognize that it is essential, and there is an 
expectation and historical record, that human rights and 
democracy promotion is, and should be, a component of every one 
of our bilateral relationships in Asia. Some of them are 
different, they are varying in scope and intensity, but we 
believe that it is critical. And you have seen, more recently, 
specific indications of that. Bob King, the recently confirmed 
representative for North Korean human rights issues, has made 
an important trip around the region, and he is actively 
involved in our diplomacy toward North Korea. I think there is 
a recognition in this administration that we cannot separate 
any diplomatic initiative in North Korea from very concerning 
human rights situation in North Korea.
    We are also involved in a dialogue to establish a new kind 
of human rights dialogue between the United States and China, 
to deal with a number of the issues that you have laid out, and 
others. And I think there are concerns that the United States 
continues to promulgate in our bilateral settings.
    We also are in the midst, as you well understand, Senator, 
of the first phases of a strategy to begin direct discussions 
with the authorities in Burma. It is too early to give a report 
card on that effort, but we recognize that this is a critical 
period, 2010, with the intention of the government to hold 
elections at some point later this year.
    There is also a desire, when it comes to global or regional 
issues of democratization and human rights, to raise these 
matters, not just in a bilateral setting, but to raise them in 
regional fora. So, for instance, at the ASEAN regional forum 
last year in Thailand Secretary Clinton raised issues of 
concern particularly in Burma, but not just in Burma, in a 
regional context. And, to our satisfaction, we have seen a 
number of other countries, like Indonesia, the Philippines, 
increasingly talk about values and shared interests in a way 
that we think is very reinforcing. And, of course, those 
general tenets and beliefs are the foundation of our strong and 
deep partnerships with countries like Japan, South Korea, 
Australia, the Philippines, Thailand, and others.
    Just as we go to questions now, Senator, I would say that I 
think the United States can take some general satisfaction 
about the historical trends. If you look at what has transpired 
since 1975 in Asia, largely due to a very strong American 
presence providing a security guarantee, and the ability for 
countries to overcome historical animosities, regional 
rivalries, anxieties about military competition, this strong 
American presence and the consistent message about the 
importance of the dignity of individuals, has led to, really, 
historically unprecedented results in the Asian-Pacific region. 
Large numbers of countries have trended democratic. Millions of 
people have been lifted out of poverty. A number of indicators 
suggest that the forward wheel of progress has been more 
significant in Asia than perhaps any other place on the planet. 
And the United States can take some satisfaction that we played 
an important role in this historical trend.
    There is much yet to be done. I think, Senator Inhofe's 
very important statement underscores that, by many indicators, 
we have seen backtracking in several states. There are a number 
of countries that still have very disappointing human rights 
records and treatments of religious and ethnic minorities.
    It is incumbent on the United States, not only to step up 
its game in the Asian-Pacific region, in terms of the level and 
intent of our diplomacy, but also as you prod us to do--to try 
to be consistent across economic variables, strategic 
variables, and the like. And that is what we are attempting to 
do as we go forward.
    And again, I thank you for the opportunity for this 
dialogue today, Senator, and for making sure that Asian issues 
are not neglected amidst the already, you know, full agenda 
including health care and developments in Afghanistan and the 
like. So, thank you for that.
    [The prepared statement of Mr. Campbell follows:]

  Prepared Statement of Hon. Kurt M. Campbell, Assistant Secretary of 
  State, Bureau of East Asian and Pacific Affairs, U.S. Department of 
                         State, Washington, DC

    Mr. Chairman, Senator Inhofe, and members of the subcommittee, 
thank you very much for inviting me here today to testify about the 
vital importance of Asian-Pacific countries to the United States and 
the key aspects of our engagement strategy with the region.
    There should be no doubt that the United States itself is a Pacific 
nation, and in every regard--geopolitically, militarily, 
diplomatically, and economically--Asia and the Pacific are 
indispensable to addressing the challenges and seizing the 
opportunities of the 21st century. Senator Webb, as you have eloquently 
noted, ``The United States is a Pacific nation in terms of our history, 
our culture, our economy, and our national security.'' As the Asia-
Pacific century emerges, defining the new international environment, 
the United States must enhance and deepen its strategic engagement and 
leadership role in the region.
    Our economic relationships demonstrate the mutual importance of the 
interactions between the countries of the Asia-Pacific and the United 
States. The region is home to almost one-third of the Earth's 
population. The Asia-Pacific accounts for almost one-third of global 
GDP and is a key driver for technological innovation. American and 
Asian economies are growing increasingly interdependent while assisting 
the global economic recovery.
    Despite significant economic growth and vitality, the Asia-Pacific 
region is home to many of the most pressing security challenges of the 
modern era. What is most often absent in our discussion about the 
``Asian miracle'' are the challenges posed by uneven growth, poverty, 
and weak and ineffective governments. Hundreds of millions have yet to 
benefit from the fruits of the Asian miracle, and income inequality 
continues to strain the capacity of governments to respond. Perhaps the 
most significant unintended consequence of the Asian miracle has been 
the acceleration of greenhouse gases into the atmosphere. Asia's 
densely populated littoral nations will likely suffer as climatic 
variations target the region. Compounding these challenges is the 
proliferation of weapons of mass destruction, extremist groups in 
Southeast Asia, unresolved territorial disputes, and growing 
competition over energy and natural resources.
    The severity and transnational nature of these challenges demand 
collective action and American leadership. They also suggest a need for 
America to enhance, deepen, and sustain our engagement to seize 
opportunities and minimize risk.
    Renewed Engagement Generates Results.--Let me now take this 
opportunity to briefly list the steps we have undertaken over the past 
year to step up and broaden U.S. engagement in the region. First, we 
have newly reengaged in the region through visits of our senior 
leadership and attendance at high-level meetings. Our attendance has 
produced concrete results that further U.S. strategic interests. In 
November, President Obama spent 10 days visiting Japan, Singapore, 
China, and South Korea, strengthening U.S. leadership and economic 
competitiveness in the region, renewing old alliances, and forging new 
partnerships. Under the leadership and guidance of President Obama, 
Secretary Clinton, and Secretary Geithner, we hosted the first U.S.-
China Strategic and Economic Dialogue in July 2009, and we will have 
follow-on discussions in 2010. The dialogue set a positive tone for the 
United States-China relationship, while underscoring challenges and 
opportunities to enhance that relationship. We continue to build the 
United States-Indonesia Comprehensive Partnership, which would provide 
a framework to broaden and deepen the bilateral relationship. Secretary 
Clinton has visited the region four times. Her first overseas trip as 
Secretary last February and her subsequent trips in July, November, and 
earlier this month bolstered bilateral relationships and enhanced U.S. 
ties to multilateral organizations.
    The renewal of high-level engagement is producing tangible results. 
President Obama's November trip included participation in the 17th 
Annual Asia-Pacific Economic Cooperation (APEC) Leaders' meeting in 
Singapore, important for U.S. trade since APEC members account for 53 
percent of global GDP, purchase 58 percent of U.S. goods exports, and 
represent a market of 2.7 billion consumers. APEC leaders endorsed the 
Pittsburgh G20 principles and agreed to implement the policies of the 
G20 Framework for Strong, Sustainable, and Balanced Growth, further 
expanding the global commitment to achieve more balanced growth that is 
less prone to destabilizing booms and busts. They also put forward a 
strong statement of support for concluding the Doha Round in 2010 and 
agreed to reject all forms of protectionism. In addition, Leaders 
agreed on core principles to promote cross-border services trade that 
will provide a strong basis for our efforts to facilitate and promote 
trade in services in the Asia-Pacific region. Leaders also pledged to 
make growth more inclusive through APEC initiatives that will support 
development of small and medium enterprises, facilitate worker 
retraining, and enhance economic opportunity for women. Finally, 
Leaders took steps to ensure environmentally sustainable growth in the 
region by agreeing on an ambitious plan to address barriers to trade 
and investment in environmental goods and services.
    President Obama also attended the Association of Southeast Asian 
Nations (ASEAN) Leaders Meeting, the first ever with all 10 ASEAN 
members represented, providing a clear demonstration of renewed U.S. 
engagement with Southeast Asia. Secretary Clinton's July trip included 
meetings with regional Foreign Ministers at the ASEAN Regional Forum 
(ARF) in Thailand and the signing of the Treaty of Amity and 
Cooperation (TAC) with ASEAN nations. Her November visits to the 
Philippines, Singapore, and China included attendance at APEC 
Ministerial Meetings and meetings with allies and regional partners 
that further solidified relationships and deepened U.S. multilateral 
engagement.
    Let me turn to another area of renewed engagement: Burma. Mr. 
Chairman, your leadership on this issue has been instrumental in 
changing our policy and initiating steps to engage the Burmese junta. 
As you are well aware, the administration's formal review of U.S. 
policy toward Burma reaffirmed our fundamental goals: a democratic 
Burma at peace with its neighbors and that respects the rights of its 
people. A policy of pragmatic engagement with the Burmese authorities 
holds the best hope for advancing our goals. Under this approach, U.S. 
sanctions will remain in place until Burmese authorities demonstrate 
that they are prepared to make meaningful progress on U.S. core 
concerns. The leaders of Burma's democratic opposition have confirmed 
to us their support for this approach. The policy review also confirmed 
that we need additional tools to augment those that we have been using 
in pursuit of our objectives. A central element of this approach is a 
direct, senior-level dialogue with representatives of the Burmese 
leadership. Since I testified before you on the subject late last 
September, I visited Burma November 3 and 4 for meetings with Burmese 
officials, including Prime Minister Thein Sein, leaders of the 
democracy movement, including Aung San Suu Kyi, and representatives of 
the largest ethnic minorities. In my meetings, I stressed the 
importance of all stakeholders engaging in a dialogue on reform and 
emphasized that the release of political prisoners is essential if the 
elections planned for 2010 are to have any credibility.
    Finally, I want to underscore the Obama administration's commitment 
to stepping up our engagement with Australia, New Zealand, and the 
Pacific Island nations. Secretary of State Clinton was en route to 
Papua New Guinea, New Zealand and Australia last week, but the pressing 
need to help organize U.S. assistance to Haiti led her to postpone that 
visit. Her trip builds on her meeting with Pacific Island leaders in 
September 2009 in New York, with all parties committing to work 
together to address climate change and other transnational issues. The 
U.S. Permanent Representative to the United Nations, Ambassador Susan 
Rice, has met regularly with her Pacific Island counterparts to share 
views and build cooperation on key issues before the United Nations. 
Within weeks of assuming my current responsibilities, I traveled to 
Cairns, Australia, to represent the United States at the Pacific Island 
Forum's Post Forum Dialogue of key partner countries and institutions. 
Australian Prime Minister Kevin Rudd chaired the proceedings, which 
focused on improving the coordination and effectiveness of development 
assistance efforts in the region.
    U.S. Principles for Engagement in the Asia-Pacific Region.--The 
Asia-Pacific region is of vital and permanent importance to the United 
States and it is clear that countries in the region want the United 
States to maintain a strong and active presence. We need to ensure that 
the United States is a resident power and not just a visitor, because 
what happens in the region has a direct effect on our security and 
economic well-being. Over the course of the next few decades climate 
change, proliferation of weapons of mass destruction, and widespread 
poverty will pose the most significant challenges to the United States 
and the rest of the region. These challenges are and will continue to 
be most acute in East Asia. This situation not only suggests a need for 
the United States to play a leading role in addressing these 
challenges, but it also indicates a need to strengthen and broaden 
alliances, build new partnerships, and enhance capacity of multilateral 
organizations in the region. Fundamental to this approach will be 
continued encouragement of China's peaceful rise and integration into 
the international system. A forward-looking strategy that builds on 
these relationships and U.S. strengths as a democracy and a Pacific 
power is essential to manage both regional and increasingly global 
challenges.
    With the positive outcomes of renewed engagement as a backdrop, I 
would like to discuss a series of principles that will guide our 
efforts moving forward. Intrinsic to our engagement strategy is an 
unwavering commitment to American values that have undergirded our 
foreign policy since the inception of our Republic. In many ways, it is 
precisely because of the emergence of a more complex and multipolar 
world that values can and should serve as a tool of American 
statecraft. Five principles guide the Obama administration's engagement 
in East Asia and the Pacific. In her January 12 speech in Honolulu, 
Secretary Clinton detailed the five principles for how we view the 
Asia-Pacific architecture and U.S. involvement evolving. These include 
the foundation of the U.S. alliance system and bilateral partnerships, 
building a common regional economic and security agenda, the importance 
of result-oriented cooperation, the need to enhance the flexibility and 
creativity of our multilateral cooperation, and the principle that the 
Asia-Pacific's defining institutions will include all the key 
stakeholders such as the United States.
    For the last half century, the United States and its allies in the 
region--Japan, the Republic of Korea, Australia, the Philippines, and 
Thailand--have maintained security and stability in East Asia and the 
Pacific. Our alliances remain the bedrock of our engagement in the 
region, and the Obama administration is committed to strengthening 
those alliances to address both continuing and emerging challenges. The 
United States, therefore, must maintain a forward-deployed military 
presence in the region that both reassures friends and reminds others 
that the United States will remain the ultimate guarantor of regional 
peace and stability. There should be no mistake: the United States is 
firm in its resolve to uphold its treaty commitments regarding the 
defense of its allies.
    Our alliance with Japan is a cornerstone of our strategic 
engagement in Asia. The May 2006 agreement on defense transformation 
and realignment will enhance deterrence while creating a more 
sustainable military presence in the region. The Guam International 
Agreement, signed by Secretary Clinton during her February 2009 trip, 
carries this transformation to the next stage. As part of our ongoing 
efforts to assist the Government of Japan with its review of the 
Futenma Replacement Facility (FRF) Agreement, a high-level working 
group met in Tokyo in November and December, and the Government of 
Japan is continuing its review. In addition to our focus on these 
issues, we are working to create a more durable and forward-looking 
vision for the alliance that seizes upon Japan's global leadership role 
on climate change and humanitarian and development assistance programs, 
to name a few. As we approach the 50th anniversary of the alliance, we 
will work closely with our friends in Japan to think creatively and 
strategically about the alliance.
    We are also working vigorously with our other critical ally in 
Northeast Asia, the Republic of Korea, to modernize our defense 
alliance and to achieve a partnership that is truly global and 
comprehensive in nature. Building off the Joint Vision Statement 
between Presidents Obama and Lee Myung-bak, we are committed to 
creating a more dynamic relationship that builds on our shared values 
and strategic interests. We look forward to the Republic of Korea's 
growing international leadership role as it hosts the 2010 G20 Leaders 
Meeting.
    Japan and the Republic of Korea have been key partners in our joint 
efforts to maintain peace and stability in Northeast Asia and, in 
particular, to denuclearize North Korea through the Six-Party process. 
The process suffered serious setbacks in 2009 with North Korea carrying 
out a series of provocations including its April 5 missile test and its 
May 25 announcement of a second nuclear test. As President Obama said, 
North Korea's actions blatantly defied U.N. Security Council 
resolutions and constitute a direct and reckless challenge to the 
international community, increasing tension and undermining stability 
in Northeast Asia. However, the international community's unified 
response to North Korea's provocations is another example of the fruits 
of U.S. engagement. The U.N. Security Council, led by our Five-Party 
partners, unanimously condemned the DPRK's provocative actions and 
passed UNSCR 1874, introducing tough sanctions against North Korea's 
weapons and proliferation finance networks. When North Korea began to 
show renewed interest in dialogue later in the year, the United States 
sent U.S. Special Representative for North Korea Policy Ambassador 
Stephen Bosworth to Pyongyang on December 8 for discussions with North 
Korean officials about the nuclear issue. In these discussions, the 
DPRK reaffirmed the importance of the Six-Party Talks and the September 
2005 Joint Statement on the verifiable denuclearization of the Korean 
Peninsula in a peaceful manner. We did not, however, reach agreement on 
when and how North Korea will return to Six-Party Talks, a matter that 
we will continue to discuss with Asian partners early in 2010.
    Our deep and sustained engagement with China continues to yield 
progress on important international issues, such as the global economic 
recovery, climate change policy, and efforts to denuclearize the Korean 
Peninsula. However, we obviously do not see eye to eye with China on 
every issue, as evidenced by our discussions on human rights and 
concerns over China's opaque military modernization and exclusionary 
industrial policies. We will continue to address these issues through 
continuous and frank dialogue, seeking out Chinese cooperation on areas 
of mutual concern while directly addressing differences. A recent 
example of this approach is our engagement regarding Google's troubling 
allegations regarding intrusions and the routine accessing of human 
rights activists' e-mail accounts by third parties. U.S. officials have 
emphasized the importance of China's addressing the concerns raised by 
Google as well as the importance of Internet freedom as a central human 
rights issue.
    We need to recognize Asia's importance to the global economy. Close 
United States-Asian economic cooperation is vital to the well-being of 
the United States and international economic order. However, as 
President Obama noted in his recent trip to Asia, ``We simply cannot 
return to the same cycles of boom and bust that led us into a global 
recession.'' The United States and Asia need to emphasize balanced 
growth and trade.
    It is worth highlighting that four Asian economies (China, Japan, 
the Republic of Korea, and Taiwan) are now among our top 12 trading 
partners. Today, the 21 APEC economies purchase almost 60 percent of 
U.S. goods. Taken as a group, ASEAN is also a large and critical 
trading partner. The strong Asian participation in APEC, the WTO, and 
the G20 reflects the increasing importance of Asian economies and their 
centrality to strengthening the multilateral trading system and 
maintaining our economic recovery.
    Continued integration of the economies of this region will create 
new business opportunities, benefiting workers, consumers, and 
businesses and creating jobs back here in the United States. Despite 
strong export growth to the Asia-Pacific, the United States share of 
the total trade in the region has declined by 3 percent in the past 5 
years. To reverse this trend, we will continue to work with the 
Congress, stakeholders, and the Republic of Korea to work through the 
outstanding issues of concern so we can move forward on our bilateral 
free trade agreement. We will also enter into negotiations of a Trans-
Pacific Partnership Agreement, as President Obama announced to APEC 
leaders in November. As the administration stated when it announced its 
intention to launch these negotiations, we intend to work in 
partnership with the U.S. Congress and stakeholders to shape a high-
standard, broad-based regional agreement that will serve as a potential 
platform for economic integration across the region. This is an 
exciting opportunity for the United States to engage with some of the 
fastest growing economies in the world as well as to update our 
approaches to traditional trade issues, address new issues, and 
incorporate new elements that respond to 21st century challenges.
    The U.S. commitment to democracy and the protection of human rights 
is an intrinsic and indispensable aspect of our character as a nation 
and our engagement in the Asia-Pacific region. Let me be clear, the 
promotion of democracy and human rights is an essential element of 
American foreign policy. It is part of who we are as a people. We 
believe human rights are not only core American values, but universal 
values. These values are a force multiplier in a region where 
democratic norms are on the ascent. We believe that citizens around the 
world should enjoy these rights, irrespective of their nationality, 
ethnicity, religion, or race. The United States will continue to speak 
for those on the margins of society, encouraging countries in the 
region to respect the internationally recognized human rights of their 
people while undertaking policies to further liberalize and open their 
states. As President Obama said in his speech on the way forward in 
Afghanistan and Pakistan, ``We must promote our values by living them 
at home--which is why I have prohibited torture and will close the 
prison at Guantanamo Bay.'' President Obama has eloquently stated that 
our willingness to speak out on human rights and other democratic 
values is the source of our moral authority and courage.
    In order to ensure that human rights and the development of the 
rule of law and civil society remain strong pillars of our engagement, 
we will continue to adopt new and creative approaches that seize the 
opportunities of a dynamic information age. The freedom to speak your 
mind and choose your leaders, the ability to access information and 
worship how you please are the basis of stability. We need to let our 
partners in the region know that we will always stand on the side of 
those who pursue those rights.
    Democratic governance is rapidly evolving within Asia; advancing 
human rights, freedom, and democracy is critical to alleviating poverty 
and conditions that catalyze extremism. Sustained economic growth 
requires governments that are transparent, noncorrupt, and responsive 
to the needs of their people. Our strategy is to maintain pressure on 
local decisionmakers to improve governments' human rights records while 
cooperating closely with international and nongovernmental 
organizations involved in monitoring and reporting on human rights.
    As the Asia-Pacific region evolves, so should our own approach to 
multilateral economic and security cooperation. The President stated in 
Tokyo that we aim to participate fully in regional organizations, as 
appropriate, including engaging with the East Asian summit. Secretary 
Clinton spoke in Honolulu of the need to enhance the flexibility and 
creativity of our multilateral cooperation. We plan to consult with 
allies and partners in the region and with Congress on how the United 
States, working with our Asian counterparts, can join and shape the 
region's evolving multilateral bodies. Strong, multilateral links to 
Asia can help ensure that the United States remains a critical part of 
this dynamic region.
    Multilateral engagement can be an effective way to address our 
efforts to deal with transnational security challenges such as climate 
change, pandemics, or environmental degradation. For example, steps 
taken by APEC and ASEAN to improve cooperation among regional emergency 
management agencies is an important step in light of the spate of 
recent natural disasters that have battered the region. Multilateral 
efforts are also proving effective in addressing new transnational 
threats such as terrorism, piracy that threatens our sea-lanes, and 
traffickers who exploit women, children, laborers, and migrants.
    In 2011, the United States will host APEC for the first time in 18 
years, providing us with unique opportunities to demonstrate our 
commitment to and engagement in the region, shape the organization's 
agenda in ways that reflect our values, and will help U.S. businesses 
and workers to compete on a more level economic playing field in this 
dynamic region. Through APEC, we will continue to advance regional 
economic integration, reduce barriers to trade and investment in the 
region, and help rebalance the Asia-Pacific economies. Working with 
ASEAN, the United States will seek to streamline and strengthen the 
ASEAN Regional Forum's (ARF) institutional processes and create a more 
action-oriented agenda, especially with respect to transnational and 
nontraditional security challenges.
                               conclusion
    The United States faces a number of critical challenges in the 
coming years in its engagement with Asia. These include rising and 
failing states, proliferation of weapons of mass destruction, critical 
global issues like climate change, violent extremism in some parts of 
Southeast Asia, poverty and income disparity. The essential ingredient 
in meeting these challenges is United States leadership. We need to 
play an active role in helping the countries of the region to enhance 
their capacity to succeed. The region is vital to U.S. interests not 
only in the Asia-Pacific context, but also globally. We are a vital 
contributor to the region's security and economic success. The Asia-
Pacific region, in turn, has a profound impact on our lives through 
trade, our alliances, and partnerships. As the region continues to grow 
and as new groupings and structures take shape, the United States will 
be a player, not a distant spectator. Under President Obama and 
Secretary Clinton's leadership, we are ready to face these challenges. 
We look forward to working with Congress and this committee to seek 
opportunities to influence positively the future direction of the 
region.
    Thank you for extending this opportunity to me to testify today on 
this pressing and vitally important issue. I am happy to respond to any 
questions you may have.

    Senator Webb. I thank you for your comments, and also for 
your written statement, which, as I said, is a part of the 
record.
    And let me begin by saying how much I appreciate the 
efforts in this administration, from Secretary Clinton's 
initial decision to make her first visit to Asia and to, as you 
put it, to put East Asia back on the map, in terms of the focus 
of the American people. As you and I have discussed on a number 
of occasions, we have spent so much emotional energy and blood 
and treasure with the situations in Iraq and Afghanistan, over 
the past 7 or 8 years, that when Americans look at Asia, they 
tend to think, principally, of China, and, on a good day, maybe 
China and Japan. But, it is really important for people in this 
country to understand the larger dynamic at play, in terms of 
our national interests, in the countries of ASEAN, which number 
at probably 650 million people, added up, and the growing 
future that we should be having in trade, commerce, as well as 
security issues.
    So, I want to make sure that, at the outset of this 
discussion that we're having today, that I reemphasize how 
vital this region is, and how positive, I think, in general, 
our relations are. We have some very serious questions of 
immediate concern. We'll talk a bit about those. And then we 
have the question that doesn't really get raised that often, 
which is the principal reason that I decided to hold this 
hearing. And that is the importance, from a United States 
perspective, of ensuring that the countries in this region know 
that we have consistency, in terms of how we approach these 
issues of, as you put in your testimony, the promotion of 
democracy and the respect for human rights.
    And let's just make sure we know where we are on these 
issues, in terms of country by country.
    First, there is a difference in our discussion that is not 
clarified enough, in my view, and that is between human rights 
issues and evolution-of-democracy issues. They're two separate 
issues. We tend to lump them together in our discussions. But, 
if we are--I'm going to read from your statement, ``Intrinsic 
to our engagement policy is an unwavering commitment to 
American values that have undergirded our foreign policy since 
the inception of our Republic. The promotion of democracy and 
human rights is an essential element of American foreign 
policy.'' This is from your written statement.
    I'd assume you would agree that there is a difference 
between issues of human rights and the evolution of democracy, 
when it comes to systems. They are compatible goals, but they 
are two separate approaches. Would you agree?
    Mr. Campbell. I would, Senator. And I would even go further 
than that. I think there are many elements of a comprehensive 
strategy associated along the lines that you have laid out. It 
is not just human rights, it is not just democracy promotion, 
it is the role of the rule of law, the role of civic society. 
And so, there are many measurements and, in fact, many tools 
that one looks for as part of a comprehensive engagement with 
states that are struggling along this path to development.
    Senator Webb. Could you review for us the extent to which 
we have been promoting democracy in a country like China?
    Mr. Campbell. Would you like me to describe this primarily 
in this administration or----
    Senator Webb. Well, in terms of government policy rather 
than aspirations.
    Mr. Campbell. Yes. I would say, first of all, in my 
experience, in every single high-level meeting that I have been 
a part of, either with the President or the Secretary or my own 
interactions, the subject of human rights has come up in every 
single meeting. Many times those interactions can be extensive 
and quite tense. They range not only--from treatment of groups 
within China to specific individual cases.
    In addition, I think that there has been an attempt to 
understand the historical trends that are at work in China, and 
to appreciate, for instance, the role of the Internet and how 
the Internet is playing. There are more Internet users in China 
than there are outside of China, a huge growing number of 
bloggers, recognition that, although there is substantial 
censorship inside the country, many Chinese users believe that 
this capability, this technology, has provided them the ability 
to raise concerns about corruption, about health care, and the 
like.
    When President Obama visited China in November, he held the 
first-ever cyber townhall in which tens of millions, probably 
close to 100 million, Chinese interlocutors and citizens had 
the chance to review his comments and see his views online.
    I think the matter that you have raised about, for 
instance, the Uyghurs in Cambodia, was raised, not just with 
the Cambodians. And I do fundamentally agree that the pressure 
brought on Cambodia was substantial, but we have also raised it 
with Chinese interlocutors.
    So, I do believe that this is an issue that is part of our 
strategic dialogue with China. Chinese interlocutors expect it. 
It would be an enormous mistake for any administration to 
neglect this critical dimension of our foreign policy. I think 
it is also the view of particularly President Obama and 
Secretary Clinton that not only is it important to talk about 
these values, but to live them. So, when the President talks 
about specific issues, he believes it is extraordinarily 
important to be consistent on Guantanamo and torture and the 
like. And so, he has been very clear with interlocutors, both 
domestically and internationally, that he believes that the 
United States itself has to stand by a higher standard.
    So, I would just say, Senator, that the administration 
believes that these issues are of central importance. They are 
not standalone issues, they have to be taken in consideration 
with a broad range of issues, such as China's role in the 
fledgling financial revival; the strategic issues arising from 
Chinese military capabilities; a very dynamic Chinese strategy 
to play a larger role, not just in Southeast Asia, but in Asia 
as a whole. And so, it is very clear that, to have a successful 
strategy toward China--and that is an enormous challenge--this 
has to be part of that overall strategy. But, it can't be a 
stand-alone issue, either.
    Senator Webb. All right. Let me give you my reaction to----
    Mr. Campbell. Yes.
    Senator Webb [continuing]. To that statement, and ask you 
another follow-on question.
    Those are all valid points. They basically go to human 
rights issues rather than democratic-systems issues, which sort 
of is illustrative of the concern that I was just mentioning. 
And this doesn't just to go into the China situation. It's to 
talk about, fundamentally, whether we have a consistent policy 
that people in all countries in Asia can understand.
    You mention Internet access, and I agree with you that it's 
a great tool, in terms of getting information in and elevating 
of public consciousness. You can see it also in Vietnam; I 
think there are now 40 million Internet users in Vietnam, 
which, per capita, probably is even higher than China.
    At the same time, we know of the situation, last week, 
where Google announced that it had been the target of cyber 
attacks. They've confirmed that it came from within China. 
They've also made statements that this is a general pattern, 
not simply designed toward Google and not necessarily designed 
toward business interests. And, at the same time, there was an 
article in the Washington Times yesterday indicating that the 
administration had downgraded the level of concern about 
Chinese activities. Rather curious timing, in terms of 
administration policy.
    With respect to--staying on the human rights question for a 
minute--with respect to human rights situations inside China, 
these are the numbers that I received from my staff, from the 
State Department's report on human rights. Vietnam has an 
estimated 35 political detainees, perhaps as high as 400, 
according to Human Rights Watch. Burma has 2,100, and that 
includes political prisoners, merchants, violators of state 
security laws, and those convicted of religious disturbances. 
China has, ``tens of thousands'' of political prisoners 
remaining incarcerated. And the number of Tibetans detained, in 
the months following the 2007 protests, is estimated at more 
than 6,500.
    So, before we get even to the question of democratic 
systems or how we articulate our desire to see democratic 
systems in these very different countries, as I pointed out in 
my opening statement, we do have serious concerns on human 
rights issues. And I know that the State Department and others 
are watching them. But, they are serious, and they do go to the 
standards that we apply, no matter what governmental system 
happens to be in place.
    The second question is more a question, I think, of 
pragmatics, but it's not unimportant, in terms of how people in 
the region, and in the world, view the credibility of what the 
United States says when it talks to one country or another 
about governmental systems.
    To my knowledge, we have never suggested to the Chinese 
Government that they hold free elections or have minority 
political parties or any of those sorts of things. Nor have we, 
in Vietnam, at least since the Paris Peace Talks of many, many 
years ago, as I mentioned. And the Hanoi government signed on 
to internationally supervised free elections, 1973. That's not 
been a part of the formula, when realistically and 
pragmatically, we shouldn't--I'm not saying, today, we should 
stand up and say that, but if you're in another country where 
the United States is taking a different line, you look for 
consistency. And I think that's what the comment was all about 
from the former Indian minister that I mentioned in my opening 
statement.
    And you see countries like Thailand, which are very evolved 
in terms of individual freedoms and free press. Even after the 
coup, the local elections took place. And you see a lot of 
pressure from the United States, cutting off different types of 
government-to-government relations.
    And then we see the situation in Burma. And I want to be 
very clear, I'm not trying, in any way, to defend the actions 
of the military junta. We're trying to figure out a way to open 
up dialogue.
    But, when you see these sorts of inconsistencies, if you 
are someone sitting in Southeast Asia right now, how would you 
explain what the overall objectives are of the United States, 
in terms of governmental systems?
    Mr. Campbell. It is a powerful question, Senator, and I 
will try to answer it with a couple of specifics. And I think 
your overall point--that one of the most important dimensions 
of American policy, in its implementation, is to make sure that 
you are both realistic and pragmatic. And so, when I talk about 
the number of factors that come into play, in terms of the 
formulation and execution of policy, let's take a few 
specifics.
    You talk about Vietnam, a country that you have forgotten 
more about than I will ever know. So, I recognize I am treading 
into an area of a profound expertise. But, if you look, 
historically, in the period before diplomatic recognition, we 
laid out some very clear things that we wanted the government 
to do, both in terms of closing of reeducation camps, some 
specific issues associated with its neighbors, and some steps 
associated with the economy.
    I would say, over the course of the last several years, we 
have seen some enormous progress in a number of areas in 
Vietnam. Extraordinarily dynamic economic performance, perhaps 
rivaling and exceeding capabilities and progress in other 
places in Southeast Asia and in parts of China. Very important, 
very impressive. The growth of certain kinds of civil society 
and certain religious freedoms recently has been extremely 
important.
    And an important dimension, Senator, that we have not 
discussed is, What is the attitude of the government toward the 
United States? The truth is, unlike some countries, at best, 
Burma is ambivalent about the United States. I know of few 
countries who are more actively interested in a better 
relationship with the United States than Vietnam, something 
that you know very well.
    So, in the plus ledger, there are some very important 
positive developments that the United States needs to recognize 
as we look at a larger strategic framework, that you know, 
again, better than I do, in Asia. But, at the same time, 
frankly, in the recent period, we have been worried and 
concerned by some developments that we have seen domestically 
in Vietnam.
    What we try to do in that dialogue is, again, recognizing 
that no cookie-cutter-like approach works, we have to sculpt 
each strategy toward each bilateral relationship and make very 
clear to our Vietnamese interlocutors that we, too, want a 
better relationship; we, too, want to work more closely 
together. Some of the domestic problems, not just human rights, 
but the lack of progress in certain areas, societally, that you 
underscore, make it difficult for the United States. But, over 
the course of the last 15 or 20 years, through suggestions from 
the United States, we have seen enormous progress on a variety 
of fronts in Vietnam.
    Burma is a very different case, Senator, and, I think, one 
that you know well. Burma has had elections. Those elections 
have been overthrown.
    I think, one of the things that we could argue about, and 
could debate--I think, in the past, perhaps the leadership of 
Vietnam was not as interested in the welfare of the people. 
Through a variety of interactions, including those of yourself 
and others in the United States, although we still have a 
repressive Communist regime, there is clearly a greater 
interest in the welfare, economically, of its people than 15 or 
20 years ago.
    I am not sure we have yet seen that corner turned in Burma. 
I think there are some very substantial concerns about how its 
leadership views the people; the quality of life of the people; 
issues associated with ethnic minorities; treatment of 
legitimate politically elected groups; and, on top of that, 
attitudes toward the United States and concerns about 
proliferation.
    And so, what we try to do, Senator, when we look at each 
country, is look at the full range of issues that we are 
confronting. But, at the same time, what we are trying to do, 
under your encouragement, is to be more pragmatic and to 
improve our standing, across the board, and to recognize that 
we must engage with the world, as we find it, not always as we 
wish it to be, and we seek improvements in each situation 
according to what is possible, what is pragmatic, and what is 
achievable.
    Senator Webb. Well, let me first say that, if you looked at 
Vietnam in 1991, when I first started going back there, you 
wouldn't see much difference from the attitude in Burma today. 
Among governing people, they were very isolated; they were a 
part of the Soviet sphere; they were, you know, getting 
billions a year from the Soviets; they were suspicious of the 
outside world.
    We didn't have trade relations, because of the trade 
embargo that followed the Communist takeover, which I 
supported, by the way, as you know, for many years. I changed 
my mind in the
mid-1990s and early 1990s, once the Japanese lifted their trade 
embargo.
    But, certain of the conditions that you mentioned really 
are a product of isolation. And when you have small 
opportunities, the smartest thing to do is to take them, and to 
see if you can build something on them, which is actually what 
happened in Vietnam.
    And Vietnam is not perfect. It's far from perfect. It 
doesn't allow an opposition party. And I don't want this whole 
testimony to get into a discussion between Vietnam and Burma, 
because----
    Mr. Campbell. Yes.
    Senator Webb [continuing]. There's many, many other issues 
for us to discuss.
    But, the best way for the United States to be understood 
inside these isolated countries is to do what we can, according 
to the precepts which we believe as a nation, to open up those 
societies and let them see the outside world.
    And a concern that I have is, if you on the other side of 
this is that if we, as a nation, tolerate certain activities by 
closed systems that have a great deal of power, as with some of 
the recent activities from China, then these emerging 
governments will see that there is no accountability for 
negative behavior and, as a result, will continue in the other 
direction.
    For instance, we just saw, very recently, in the last 
couple of weeks, in China and then in Vietnam, the decision to 
imprison certain dissidents who were, essentially, speaking 
their minds, as much as anything else. What would your thoughts 
be about that sort of behavior?
    Mr. Campbell. Thank you, Senator. I agree, we--just back on 
one point, I agree with your statement about Vietnam in 1991. 
But, what we saw throughout the 1990s were occasionally 
dramatic, but most often incremental, steps by the leadership 
in Vietnam, a direct communication with the United States about 
a desire to have a better relationship. And over a period of 10 
years, that relationship was fundamentally transformed, largely 
due to the encouragement of people like you and Senator McCain 
and others, who shed blood and committed themselves to a 
profound engagement with that country.
    We are attempting to take that first step with Burma--
again, with the encouragement of people like you. But, I do 
want to underscore that one cannot dance on a dance floor 
alone. We have been very clear about the things that we are 
prepared to do. We have communicated them at a high level. And, 
Senator, I must say, you know this, we've done some of those 
things already. We are looking for some clear signals from the 
junta about their intentions on the way forward.
    And so, I fundamentally, violently agree with your logic 
here. And we acknowledge that we are at the very beginning of 
this process, but this will not be a one-way affair. We will 
need to see reciprocal steps, even if those steps are small 
ones. And we think it is important. So, I completely agree with 
you, more generally.
    On the issue of----
    Senator Webb. Let me just----
    Mr. Campbell. Please.
    Senator Webb [continuing]. If I may, having visited Burma 
last August and having met with all their top leadership, and 
then had subsequent meetings in the United Nations here, I was 
a part of that journey in the 1990s with Vietnam. And people 
are right, Burma is not Vietnam. Vietnam is not Burma.
    At the same time, the process, as you correctly say, is a 
gradual process over time. But, it was not simply the 
Government of Vietnam deciding that they wanted better 
relations in the early 1990s. They had faced a situation, with 
the demise of the Soviet Union, where they were not receiving 
the same support, financially and otherwise, from the Soviet 
Union. But, there was a lot of resistance, inside the 
Government of Vietnam, to moving forward. And it was very 
important for people, at a lot of different levels, to bring 
the mid-level people from the Vietnamese Government out--the 
future leaders--to allow them to see, with their own eyes, the 
way that the rest of the world was working, and to do a lot of 
other things.
    So, I didn't see a complete resistance in the Burmese 
Government. And this is not the appropriate place for the 
discussion, and I would say that looking at the situation, I 
have seen some positive movement, in terms of how they are 
dealing with Aung San Suu Kyi and her political party, and 
having met with a number of groups here, too, as well. So, I 
didn't want to----
    Mr. Campbell. Yes.
    Senator Webb [continuing]. To let that go without some sort 
of a reaction to it, that it's, by no means, a slam dunk, but I 
don't think you're out there on a dance floor all by yourself--
--
    Mr. Campbell. Yes.
    Senator Webb [continuing]. Either.
    Mr. Campbell. I did not mean to indicate that I was. What I 
was trying to indicate to you was that when the United States 
articulates a strategy, a desire to engage, whether it's in 
North Korea or it is in Burma, there is an understanding that 
we will be pragmatic, we will demonstrate where we can be 
flexible, but we expect results. And I would be the first to 
say that I think we see at least some signs that we are looking 
forward to follow up on. But, it is also the case, Senator, if 
we are both honest, it is still too early to tell, and much 
more needs to be done.
    On your earlier point about a variety of developments in 
Southeast Asia, and also in China, in terms of treatment of 
both dissidents and minority groups, I think it is incumbent on 
the United States to raise those issues at the highest levels.
    I think, occasionally, and again, I am relatively new to 
the State Department, to be perfectly honest, we have dialogues 
internally with senior-level people, and we sometimes discuss 
and debate about what is the most appropriate way to manage and 
handle situations. Is it better to be outspoken and public? Is 
it better, in certain circumstances, to use the quiet channels 
of diplomacy? And, truth be told, probably the most successful 
strategies involve elements of both. And that is what we have 
tried to do, across the board.
    And so, there have been times where we think it's important 
to speak out loudly and clearly, in circumstances in China and 
other parts of Southeast Asia, and there have been other 
circumstances where we think it perhaps is more prudent, and we 
have a better chance at getting the short-term achievements 
that we're looking for, by managing things quietly and 
carefully behind the scenes.
    I mean, that is the essence of diplomacy. It also leads, 
often, to substantial second-guessing, which I understand. But, 
I think what is important to underscore is that I would say 
that I spend a substantial part of every day thinking about 
both individual cases and also questions of state policy when 
it comes to these critical matters.
    Senator Webb. And you mentioned something in your oral 
remarks that I think it's worthwhile to follow up on, and I'd 
like to hear your specific thoughts on it. And that is that, as 
we both know, as all of us in this room know, Asia is really 
moving toward multilateral relationships. And it's positive. 
ASEAN is one of the great things that's happened in East Asia 
in the post-World War II period.
    If we are desirous of promoting certain types of 
governmental behavior, it would seem to me that the best way to 
do so, along with our economic and cultural interests, are to 
reaffirm our relationship with countries like Japan, and to 
build partnerships that demonstrate the validity of the way 
that these systems work. What are your thoughts on that?
    Mr. Campbell. Thank you. I really appreciate the question. 
Let me try to answer it in two parts, and I will do the last 
part first.
    I think there is a recognition now--and again, this is not 
new, it is something that you see consistently, over several 
administrations--but we have a much greater chance at success 
at major initiatives if we bring our like-minded partners 
along.
    So, for instance--you know, yes, there is a lot of debate 
about a particular base in Japan. Well, we do not need to get 
into that--but, the truth is, if you look at what Japan has 
done over the course, Senator, of the last several months in a 
variety of areas, it is really almost unprecedented. And they 
have gotten remarkably little credit for it.
    Who, today, is the largest provider of aid in Afghanistan? 
It is Japan, a $5 billion commitment, the largest by far. They 
pay the salaries of most of the policeman and other critical 
parts of civic society in Afghanistan.
    Which country stepped up with the United States at 
Copenhagen to say, ``Look, yes, we can talk about limits, we 
can talk about quotas, but let us talk specifically about the 
urgent programs that will be necessary to deal with the poor 
that will bear the burden of climate change''? Japan.
    Which country has been helpful, in terms of piracy 
prevention in the Gulf of Aden? Japan.
    Which country, immediately after the Secretary's 
announcement of the Mekong Initiative, stepped up with 
resources to try to help support this overall effort? Japan.
    We are trying to work with Japan and a new Korea Government 
that has adopted an outward profile, a sort of global Korea, 
much more interested in the promotion of shared values and 
expectations. We are trying to work with other like-minded 
states in the Pacific as we step up our game, something that 
you've talked about. We are proud, we have opened up USAID 
offices. We are working more closely with our partner nations 
on development objectives in the Pacific.
    These programs extend, not just to Japan and Korea and 
Australia, but, increasingly, to India, a country that is now 
demonstrating a greater desire to play a role in the Asia-
Pacific region.
    So, no element of American policy could be more important, 
in my view, than the sort of value-added multiplicity 
associated with not working alone, but working with other like-
minded states.
    And, Senator, I have gone on so long, this shows you how 
out of step I am, I have forgotten your first question. So, I 
apologize. I----
    [Laughter.]
    Senator Webb. You answered it.
    Mr. Campbell. OK. Did I? I think I answered the second 
question.
    Senator Webb. Well, I think--well, you know, I totally 
agree with you. We tend to forget, in this country, the amazing 
story of Japan since the end of World War II----
    Mr. Campbell. Yes.
    Senator Webb [continuing]. In terms of its form of 
government and the economic energy and the vitality of its 
culture and the contributions the Japanese have made alongside 
us in many, many areas. So, I would very much appreciate your 
observations.
    Mr. Campbell. I just remembered the point that you made 
about multilateralism and about institutions in Asia. I think 
there is a general perception that, you know, if you look--if 
there is this tendency to want to compare Europe and Asia. And 
although Asians are very polite, one of the things they hate is 
when people come and explain how their institutions are 
inferior to European institutions, or different.
    The biggest and most pleasant surprise I have had there 
have been many, but one of them since coming to office has been 
to see the dramatic progress that an organization like the 
ASEAN Regional Forum has made in just a short period of time. 
It is much more serious, much more focused on the critical 
issues that define the region; and the United States wants to 
be part of that.
    When we talk, Senator, about the great achievement, 
institutionally of ASEAN, it seems to me that what you are 
describing, this inconsistency, this difficulty in coherence, 
is occasionally not simply exhibited or demonstrated by the 
U.S. Government. You see it, actually, is in the region, as a 
whole. And so, there is this desire, in ASEAN, to act in a 
unified, collective, coherent way, but one of the challenges 
that ASEAN has faced in recent years is the dramatic 
differences between their government structures and their 
outlooks.
    And so, we see, increasingly, gaps developing between 
emerging dynamic democratic states like Indonesia and countries 
like Burma that are still struggling at a much different level 
of development.
    And so, for us, we think one of the reasons why it is 
important to promote these shared values and goals is that, 
ultimately, for ASEAN to be effective, to be the dominant 
institution of Asia and when you talk about ASEAN, Senator, it 
is not just some modest success. ASEAN is economic performance, 
in terms of overall trade, exceeds economic interaction with 
Europe. And I do not think that is appreciated or well known by 
most Americans.
    But, for the organization to be successful, it has to have 
a greater leveling effect. And the only way that happens, I 
think, over time, is if there is a shared aspects and 
aspirations associated with government attitudes and the like.
    Senator Webb. I would agree. At the same time, one of the 
precepts in ASEAN is that, if you are a member, then you are 
treated equally inside ASEAN, as a member. It creates something 
of a difficulty for the efforts that we have been looking at 
here, in terms of putting together a Free Trade Agreement with 
ASEAN, which is something that I believe would be beneficial to 
the country, if we were able to do it. And I say that because 
of the situation with the sanctions in Burma at the moment.
    But, as we move forward in the region, again, we've got 
this two-headed difficulty here, the two parts that seem to 
collide on all issues of policy; and that is, on the one hand, 
we must be pragmatic as a nation, and, on the other hand, we 
cannot retreat from the values that we espouse. And that goes 
to systems of government.
    And there's an old saying in Asia, many years ago, I 
remember, from when people were discussing some incidents in 
China during World War II, ``Did you kill the chicken to scare 
the monkey?'' You know, you take a small incident, and it has 
larger reverberations.
    Mr. Campbell. Yes.
    Senator Webb. And if we are not consistent in how we deal 
with these incidents, such as locking up dissidents and these 
sorts of things, in a country like China, then the rest of the 
region does not believe we're serious about what our policies 
really are. Would you not agree?
    Mr. Campbell. I agree with that, Senator.
    Senator Webb. Well, I appreciate, very much, your coming 
today. This is, I think, a fresh opportunity to try to bring 
some consistency into our policies. And, again, I thank you for 
your testimony.
    Mr. Campbell. Thank you, Senator.
    [Pause.]
    Senator Webb. We will now begin our second panel.
    We would like to welcome Dr. Robert Sutter of Georgetown, 
and Dr. Robert Herman of Freedom House. I----
    Dr. Herman. Thank you.
    Senator Webb [continuing]. Related their extended 
biographical information at the beginning of this hearing. And, 
once Secretary Campbell departs----
    Dr. Herman. He is here.
    Senator Webb [continuing]. With his entourage, we will----
    [Laughter.]
    Senator Webb [continuing]. Begin.
    Dr. Sutter----
    Dr. Herman. He is here. He stepped out--maybe he got swept 
away with the entourage. [Laughter.]
    Senator Webb. Well, Dr. Herman, welcome. And when Dr. 
Sutter, shows up we will give him, also, the opportunity to 
testify. Thank you very much for being with us today.

   STATEMENT OF ROBERT HERMAN, DIRECTOR OF PROGRAMS, FREEDOM 
                     HOUSE, WASHINGTON, DC

    Dr. Herman. My pleasure. Thank you. Thank you, Mr. 
Chairman.
    Let me begin by thanking you for convening this important 
and timely hearing on Principles of U.S. Engagement in Asia. 
I'm honored to appear before the subcommittee as a 
representative of Freedom House, an independent nongovernmental 
organization committed to the expansion of freedom around the 
world.
    We carry out that mission through a variety of--or, through 
a combination of research and analysis, advocacy, domestically 
and internationally, and programs, some that are funded by the 
U.S. Government that provide direct support to democracy and 
human rights activists, particularly in repressive political 
environments.
    It is our considered view that U.S. policy must accord high 
priority to the advancement of democracy and human rights 
around the world. Indeed, over several decades successive 
administrations, Democratic and Republican, have understood 
that helping to build a world in which governments respect the 
fundamental rights of their people, and those in power derive 
their authority and legitimacy from the consent of the 
governed, advances U.S. vital interests.
    As importantly, the United States and like-minded allies 
have sought to protect and strengthen universal human rights as 
an end in itself. History has demonstrated that nurturing 
democracy and human rights, and the values that underpin them, 
is both the right and the smart thing to do.
    Recent statements by President Obama and Secretary of State 
Clinton, reaffirming the centrality of democracy, human rights, 
and the rule of law in the formulating of U.S. foreign policy, 
are especially welcome in light of the siege against activists 
launched by authoritarian regimes in every region of the world.
    Asia, as we heard this morning, is a region of seminal 
importance to the United States. American policymakers confront 
an exceptionally diverse landscape, in terms of history, 
language, culture, and levels of economic and political 
development. The principles that shape our engagement with 
those countries of the region should reflect our core values, 
which include support for democratic governance, rule of law, 
and fundamental freedoms.
    But, the precise nature of our engagement will, and should, 
vary from country to country, due to a different constellation 
of local conditions, challenges, and opportunities largely 
shaped by the character of the political system. Our 
relationship with China or North Korea will qualitatively--will 
be qualitatively different than our relationship with Japan, 
Australia, or Indonesia. But, by the same token, strategies to 
support human rights in Cambodia will differ appreciably from 
strategies pursuing the same goal in other equally inhospitable 
settings--for example, Vietnam.
    Rather than an inconsistent application of essential 
principles, what might be termed ``pragmatic idealism'' blends 
normative commitment and the crafting of circumstances, 
tailored policies that work.
    In Asia, United States engagement necessarily involves 
sustaining and deepening ties with allies, and should include 
cooperating with these established and nascent democratic 
states, both bilaterally and in international fora, to bolster 
fundamental rights.
    At the same time, the United States must pursue 
constructive relations, as you made clear, with authoritarian 
states, where shared interests will be less robust. In these 
cases, engagements should not be confined to relations with the 
governments, it should also entail reaching out to the 
respective citizenries of these countries directly and through 
U.S. NGOs. In most, though not all, instances, this elevates 
the stature and boosts the legitimacy of democracy and human 
rights activists in their own societies.
    Any effort to design and implement effective policies 
should be grounded in an accurate assessment of political 
conditions in the given country. For almost 40 years, Freedom 
House has applied a rigorous methodology to analyze the state 
of political rights and civil liberties in every country in the 
world. Our annual survey, ``Freedom in the World''--and we have 
a map here that is the result of that analysis--we found that 
in 2009, what we have termed a ``global political recession'' 
has deepened, as twice as many countries registered declines as 
advances. This sober state of affairs reflects a systematic, 
coordinated, global effort to counter the push for greater 
political freedom.
    Repressive regimes, and even some marginally democratic 
ones, attempted to shrink the space for independent political 
activity; restricted the flow of ideas and information, 
including on the Internet; misused the law to silence domestic 
critics; and prevented civic activists from receiving 
assistance from the international community.
    According to Freedom House's tripartite categorization, 89 
countries, or 46 percent of the total, are rated ``free,'' 
about a quarter are ``not free,'' and 30 percent are deemed 
``partly free.'' Over 2.3 billion people, or one-third of the 
world's population, live in ``not free'' countries. Over half 
of them in China.
    The performance profile of the Asia-Pacific region, as it 
is delimited geographically by this subcommittee, is quite 
similar to the global picture, but the authoritarian shadow 
cast by China is much more pronounced. Almost 70 percent of the 
region's people live in ``not free'' countries.
    In 2009, modest gains were registered in Indonesia, Taiwan, 
Mongolia, while in Japan--while Japan saw an election that 
brought to power the opposition democratic party. However, 
these advances were eclipsed by declines in both authoritarian 
and nominally democratic societies, from Cambodia and North 
Korea and Vietnam to the Philippines.
    The established consolidated democracies, such as Japan, 
Australia, New Zealand, South Korea, Taiwan, and many of the 
small island nations, continued to perform at high levels. In 
addition to security and economic ties, several allies and 
partners in promote--several of these allies are partners in 
promoting democracy and human rights in the region and beyond.
    The middle category, of ``partly free'' countries, has two 
tiers. The first consists of democracies, such as Indonesia and 
Mongolia, that have made important strides even as they 
continue to grapple with challenges to buttress their 
democratic institutions.
    The second tier finds struggling former or would-be 
democracies, such as the Philippines, Thailand, East Timor, and 
Malaysia, countries that have some of the components of a 
democratic polity, but where weak rule of law, widespread 
corruption, concentration of political power, and restrictions 
on civil liberties retard progress. These countries are prime 
candidates for various types of support designed to enhance the 
prospects for democratic consolidation.
    The Asia-Pacific region is also home to several of the 
world's most repressive societies. China, Burma, North Korea, 
Laos, and Vietnam rank among the worst performers with respect 
to political rights and civil liberties. Cambodia is only 
marginally better. These countries systematically violate human 
rights, permit very little, if any, space for independent 
political activity, suppress any hint of independent media, and 
lack even those rudimentary mechanisms for holding those in 
power to account.
    Those seen as a threat to the regime are dealt with 
harshly--again, as was raised this morning--imprisonment and 
torture are common. While some of these countries have made 
impressive economic gains that have lifted millions of people 
out of poverty--no small achievement--the possibility for 
citizens to exercise freedom of expression, freedom of 
association and assembly, and other fundamental rights, is 
severely circumscribed.
    As the United States engages with authoritarian 
governments, the agenda with China being particularly broad, 
political liberalization and human rights must be an important 
part of the dialogue. These governments have come to expect it, 
and will not shun relations because America's leadership, its 
diplomats, and Members of Congress insist on discussing human 
rights. Moreover, this is who we are as a nation and as a 
people.
    And while devising strategies incorporating a mix of 
carrots and sticks to influence government behavior, the United 
States and its allies should continue to expand efforts to 
support front-line activists who are running tremendous risks 
in advocating for political reform and adherence to human 
rights norms. This support is often the lifeline they need to 
carry--to continue on with their work.
    The state of democracy and human rights in the Asia-Pacific 
is far from grim. As I was reminded again on my recent trip to 
Indonesia and Malaysia, and by virtue of the ongoing work that 
Freedom House does with activists across the region, brave and 
resilient men and women are making their voices heard and 
organizing to pressure those in power to respect rights and 
embrace democratic reform.
    ASEAN, which we discussed a lot this morning, the 
Intergovernmental Commission on Human Rights, ICHR, marks the 
first time the organization has established a mechanism to 
support human rights. It is the product of a decade-long 
campaign by civil society groups, parliamentarians, and 
sympathetic government officials from member states. Whether it 
becomes an effective instrument for influencing the actual 
behavior of governments remains to be seen, but it does provide 
a venue and a means for civil society to engage decisionmakers.
    Paradoxically, even the repression experienced by so many 
people in the Asia-Pacific region is cause for hope. 
Governments are cracking down, precisely because citizens, 
civil society activists, journalists, bloggers, political party 
and labor activists, are overcoming daunting obstacles to 
exercise their fundamental rights and press those in power to 
move these countries in the direction of democracy and the rule 
of law.
    Mr. Chairman, the U.S. Government and the broader policy--
foreign policy community should leave no doubt we stand in 
solidarity with them while simultaneously pursuing our mutually 
beneficial relations with those governments.
    Thank you, and I look forward to your questions.
    [The prepared statement of Dr. Herman follows:]

Prepared Statement of Dr. Robert Herman, Director of Programs, Freedom 
                         House, Washington, DC

    Chairman Webb and members of the subcommittee, thank you for 
calling this important hearing today and for inviting Freedom House to 
testify. Since President Franklin Roosevelt's famous ``Four Freedoms'' 
speech on the eve of American entry into the Second World War, the 
United States has consistently espoused certain principles in its 
engagement with countries around the world. The United States is not 
only a signatory of the Universal Declaration of Human Rights; the UDHR 
is itself a reflection of the vision set out by Roosevelt's ``Four 
Freedoms'' speech; indeed, American diplomatic efforts, in the person 
of Eleanor Roosevelt, were instrumental in the U.N. General Assembly 
adoption of that historic document more than 60 years ago. Since that 
time, America has supported the rule of law, freedom of thought, 
representative government, and respect for individual rights as a key 
part of our foreign policy agenda.
    The United States has not always applied these principles 
uniformly. Frequently, democracy and human rights priorities are 
overtaken by pursuit of economic or security interests. Different 
challenges and opportunities naturally require different strategies. 
The United States engagement in the East Asia-Pacific region must be 
nuanced, adaptive, and commonsensical, while maintaining our commitment 
to core values. We at Freedom House believe that diplomatic engagement 
should be shaped by the realities on the ground, and that a policy that 
is effective in one country or region may need to be altered to be 
effective in another. At the same time, we believe that supporting 
human rights and promoting democratic institutions must be a vital part 
of the American agenda in every country.
    Any evaluation of the effectiveness of U.S. policy needs to be 
grounded in an accurate assessment of the state of human rights and 
freedom within a country. That assessment needs to look at the 
treatment of individuals, and the laws and practices that undergird 
fundamental human rights, but also include an analysis of how the 
political system and regime actually operate. Freedom House has been 
producing reports analyzing the state of political rights and civil 
liberties in every country around the world for close to 40 years.
              the world as it is: political trends of 2009
    On January 12, Freedom House released the findings of ``Freedom in 
the World 2010,'' the latest edition of its annual assessment of 
political rights and civil liberties covering every country and 
territory in the world. We found that 2009 is the fourth consecutive 
year in which setbacks have outnumbered gains, the longest such pattern 
of overall decline in the nearly four-decade history of ``Freedom in 
the World.''
    In 2009, declines for freedom were registered in 40 countries, 
representing 20 percent of polities and occurring in most regions in 
the world. In 22 of those countries declines were significant enough to 
merit numerical Rating declines in political rights or civil liberties. 
Six countries moved downward in their overall Status designation from 
either Free to Partly Free or from Partly Free to Not Free. This year 
also saw a decline in the number of electoral democracies--from 119 to 
116--now back down to the lowest figure since 1995.
    Forty-seven countries were found to be Not Free in 2009, 
representing 24 percent of the total number of countries. The number of 
people living under Not Free conditions stood at 2,333,869,000, or 34 
percent of the world population, though it is important to note that 
more than half of this number lives in just one country: China. The 
number of Not Free countries increased by five from 2008.
    By absolute historical standards the overall global state of 
freedom in the world has actually improved over the past two decades. 
Many more countries are in the Free category and are designated as 
electoral democracies in 2009 than in 1989, and the majority of 
countries that registered democratic breakthroughs in the past 
generation continue to perform well, even under stress such as the 
present global economic crisis.
    However, over the past 4 years, the dominant pattern has been that 
of growing restrictions on fundamental freedoms of expression and 
association, and the failure to secure the primacy of the rule of law 
and to reduce corruption, stalling or reversing democratic progress in 
a number of countries. Unfortunately, these patterns have taken hold 
in, and sometimes been set by, countries in the East Asia-Pacific 
region and in 2009 we saw five particularly troubling trends:

  <bullet> Government efforts to restrict freedom of expression and 
        press freedom were expanded to include restrictions on and 
        control of the use of new media as a tool to facilitate citizen 
        activism or social networking considered to be a threat to 
        incumbent regimes. This effort was exemplified by China, which 
        remained at the forefront of efforts to develop and deploy new 
        forms of Internet control. Additionally, China's tactics to 
        curtail new media have significantly influenced other 
        authoritarian states with Vietnam, Burma, and Malaysia adopting 
        measures in 2009 to monitor and crackdown on Internet users.
  <bullet> We saw regimes undertake repressive campaigns against ethnic 
        and religious minorities in 2009. Additionally, the plight of 
        many refugees in the region has worsened due to troubling 
        developments where governments forcibly returned countries to 
        regimes where they face persecution, prison, and torture.
  <bullet> The overall trend in 2009 was one of decreasing respect for 
        the rule of law, including in countries deemed Partly Free such 
        as the Philippines.
  <bullet> Our 2009 assessment illuminates a disturbing pattern of 
        growing restrictions on freedom of association by regimes 
        worldwide, a response to the demands of citizens for 
        accountable governing institutions that respect human rights.

    The global trends away from freedom are also evident in declines in 
a number of countries in the Asia-Pacific region, although there was 
less movement there this year than in other parts of the world.
                      east asia and pacific trends
    As the world's most populous region, Asia is home to both some of 
the globe's largest democracies and to its most populous authoritarian 
regimes, presenting distinct challenges for democratic development and 
for the United States.
    The East Asia and Pacific region experienced some modest gains in 
2009. Indonesia held competitive and fair general elections in 2009 and 
polls in Mongolia contributed to improvement in the realization of 
political rights. Japan experienced a significant transfer of authority 
when the Democratic Party of Japan took control after 50 years of 
nearly continuous rule by the Liberal Democratic Party. Additionally, 
some of the world's most stable democracies can be found in important 
regional partners such as South Korea, Taiwan, New Zealand, and 
Australia. Unfortunately, these positive developments occurred against 
a backdrop of declines in a number of countries in the region, and 
continued repression and persecution by some of the world's worst human 
rights violators.
    East Asia is home to four of the world's most repressive regimes. 
Burma and North Korea have consistently received Freedom House's lowest 
possible ranking on political rights and civil liberties, that of a 
7,7. Faring only slightly better are Laos and China which each received 
a 7 for political rights and a 6 for civil liberties in 2009. In North 
Korea, already the world's most repressive country, conditions 
deteriorated further during the year.
    There were negative political developments in many countries in the 
region in 2009. In the Philippines, the massacre of civilians in 
connection with a local candidate's attempt to register his candidacy, 
and the government's subsequent declaration of martial law in the area, 
were indicative of heightened political violence in the runup to 2010 
elections. In Burma, the military junta continues to cling to the 
promise of elections in 2010 despite the absence of a date and the 
continued incarceration of much of the opposition party leadership, 
including the obsessive harassment of Nobel Peace Prize laureate Aung 
San Suu Kyi.
    Among civil liberties, particular pressure was placed on the rule 
of law and respect for freedom of expression, with reversals noted in 
both authoritarian and democratic societies. In Cambodia, the 
government recriminalized defamation and then used the new legislation 
to intimidate independent journalists. In Vietnam, a prominent 
independent think tank was shut down and prodemocracy civic activists 
were imprisoned. Even in a promising democracy like Indonesia there 
remain concerns; in 2009 top law enforcement officials were implicated 
in efforts to undermine anticorruption bodies. And in China, Communist 
Party leaders sought to tighten control over judges, while embarking on 
a sweeping crackdown against leading human rights lawyers and 
nonprofits offering legal services.
    Indeed, as China's leaders showed greater confidence on the world 
stage, their actions at home demonstrated continued insecurity and 
intolerance with respect to citizens' demands for legal rights and 
accountable governance. The authorities' paranoid handling of a series 
of politically sensitive anniversaries--such as the 60-year mark of the 
Communist Party's time in power--included lockdowns on major cities, 
new restrictions on the Internet, the creation of special extralegal 
taskforces, and harsh punishments meted out to democracy activists, 
petitioners, Tibetans, Falun Gong adherents, and human rights 
defenders. Separately, longstanding government policies of altering 
demography and repressing religious freedom in the Xinjiang region came 
to a head in 2009, when an eruption of ethnic violence was followed by 
forced ``disappearances'' of Uighur Muslims, a series of executions, 
and tightened Internet censorship.
    Often at great personal risk, many of China's bloggers, 
journalists, legal professionals, workers, and religious believers 
nevertheless pushed the limits of permissible activity in increasingly 
sophisticated ways. They managed to expose cases of official 
corruption, circulate underground political publications, and play a 
role in forcing the government's partial retraction of a policy to 
install monitoring and censorship software on personal computers. 
Growing labor unrest and better organized strikes reflected workers' 
ability to bypass the party-controlled union, sometimes resulting in 
concessions by employers.
    Taiwan in 2009 registered progress and decline. Despite promising 
improvements in anticorruption enforcement, there were some troubling 
developments including new legislation that restricts the political 
expression of academics and an influx of Chinese investment that may 
stifle freedom of expression.
       principles for u.s. engagement in the asia-pacific region
    In order to successfully engage countries in the Asia-Pacific 
region while maintaining our commitment to human rights and democracy, 
U.S. foreign policy should be guided by the following principles:
Be Present and Active
    The relationship with the Asia-Pacific region is one of the United 
States most important; it is imperative that the United States continue 
to play an active role in the region. The Obama administration has 
already clearly articulated this as a core element of its current 
foreign policy agenda, most recently with Secretary of State Clinton's 
January 12 speech on United States-Asia relations at the East-West 
Center, in which she said, ``America's future is linked to the future 
of the Asia-Pacific region; and the future of this region depends on 
America.'' The prominence of Asia in U.S. foreign policy is evidenced 
by high-profile trips to the region by the President and Secretary of 
State during the administration's first year.
Develop Both Bilateral and Multilateral Relationships
    Our regional relationships are just as important as our bilateral 
ones. President Obama's participation in the APEC summit last year and 
his attendance of the first-ever United States-ASEAN summit in November 
show renewed U.S. commitment to involvement in regional issues. 
Multilateral institutions in the region have been, and will continue to 
be, a vitally important tool for engaging those countries with which 
the United States may not have such close relationships. We should 
intensify our participation in Pacific institutions.
    Regional mechanisms can be a vehicle for promoting the values the 
United States seeks to prioritize, such as human rights and robust 
democratic institutions and processes. For example, the United States 
should strongly support the newly created ASEAN Intergovernmental 
Commission on Human Rights (AICHR). This is after all, the product of 
several years' effort by civic leaders and diplomats from a number of 
countries, including Indonesia, Thailand, and the Philippines. However, 
it is important to note, as Secretary Clinton did when discussing AICHR 
in her speech on Asia-Pacific policy earlier this month that, ``our 
institutions must be effective and focused on delivering results.'' 
Freedom House hopes that with the United States cooperation, ASEAN can 
use AICHR to promote fundamental freedoms as universal pan-Asian 
principles.
Support Friends and Allies
    The United States ties to the countries of the Asia-Pacific region 
are complex; we have strong economic partnerships with many countries 
in the region, as well as longstanding alliances with countries 
including Japan, South Korea, Australia, Thailand, and the Philippines. 
Our friends and partners in the region live in the shadow of the wealth 
and influence of China as well as the constant threat of a nuclear 
North Korea. Through diplomacy and policymaking we must reinforce our 
commitments to our allies and be a strong and consistent counterpoint 
to the increasing economic and political influence of China.
Engage all Governments While Promoting American Values
    In order to be an effective influence in the region the United 
States must make attempts to engage every government and their people. 
The idea that certain governments' policies preclude all diplomatic, 
economic, or other engagement with the United States is at odds with 
our goals of being a primary actor in the region. We at Freedom House 
believe that while policies must be tailored to the specific situation 
in each country, some level of engagement is necessary and should be 
pursued with every government. A willingness to dialogue with a 
repressive regime does not imply approval for its policies, but it 
matters what is said in these dialogues, in private as well as in 
public.
Foster Relationships With Civil Society
    Equally important, the United States should engage with and support 
elements of civil society across the region, especially in those 
countries where activists face intense repression. By engaging civil 
society the United States can also gain greater insight into the 
dynamics driving possible change in the country. In some cases U.S. 
support may be financial, but many times it involves providing training 
or access to new media. Other times it's as simple as making a public 
statement to let the world, and target governments, know that those who 
are struggling for human rights and democratic reform do not stand 
alone. The United States can make unequivocally clear that we support 
those who advocate and work for peaceful democratic change.
    Regimes opposed to promoting political freedom and human rights in 
the region often cite a difference in ``Asian values'' to justify the 
subordination of human rights and democracy to economic and strategic 
factors. While poverty rates are down throughout the region and many 
countries are succeeding economically, democratic gains have not 
necessarily followed, and indeed have stagnated in some once-promising 
countries. However, Asia is home to a number of strong, vibrant 
democracies, and across the region, millions of people engage daily in 
an effort to expand freedom and justice in their societies, sometimes 
at great personal risk. The existence and actions of these successful 
democracies and democratic activists belie the ``Asian values'' 
argument, and it is encouraging to see regional agreements and 
mechanisms such as AICHR, along with and increasingly vocal and 
technologically savvy activist community, to demonstrate that Asian 
values can, and do, include democracy and human rights.
                           pragmatic idealism
    Any discussion of U.S. efforts to help support democratic political 
reform in Asia or elsewhere should be imbued with an appropriate degree 
of modesty and humility. The fate of freedom and democracy in other 
countries, has always primarily been determined by those within these 
societies. The ability of the U.S. Government--or U.S. NGOs--to 
influence the course of events abroad is limited. We are usually the 
supporting actors in dramas that are being played out by others. How 
well we play our roles, of course, occasionally matters a lot, and 
often depends on how well we are listening and responding to the voices 
of democrats and human rights advocates in those countries.
    That being said, Freedom House was founded on the premise that the 
U.S. Government--and increasingly, other democratic governments--can 
make a difference. Finding the right way forward and the appropriate 
balance in our relations with other countries has been a challenge for 
successive U.S. administrations, especially over the last 20 years. But 
in dealing with these countries on security, trade, environmental, or 
other important interests, Freedom House believes that the United 
States should never retreat from its role as a defender and protector 
of human rights, whose political, diplomatic, moral, and material 
support struggling democratic activists around the globe have looked to 
for decades.
conclusion: how can the u.s. and congress better promote democracy and 
                       human rights in the region
    In addition to holding the purse strings and overseeing the 
executive branch, Members of Congress and their staffs should also play 
an active role in supporting human rights and civic activists abroad. 
Hearings like this are important. Frequent travel to these countries 
and meeting with courageous civil society, human rights, and political 
party activists struggling to realize fundamental political rights and 
civil liberties is a critical signal of the support of the American 
people for their struggle.
    In its relations with other countries, the United States must at 
times have the courage of inconsistency. We will never be able to adopt 
uniform approaches to human rights with regard to every country around 
the world, nor should we. Each country requires a specific tailored 
strategy based on a detailed assessment of the realities and dynamics 
within a particular society, and the leverage that the U.S. Government 
can use to bring about change. However, in our dealings with foreign 
governments and their citizens, we should never allow our core values 
of human rights and democracy to fall off the table. Human rights 
activists have come to rely on our commitment to their cause, though 
they may not be able to always say so publicly. Instead of ignoring 
this commitment because it may be too difficult, we should redouble our 
efforts and consider new and innovative ways to help those who need it 
most. I again thank the subcommittee for asking me to testify at this 
hearing and look forward to your questions.

    [Editor's note.--An addendum submitted with Dr. Herman's 
prepared statement was to voluminous to print in this hearing. 
It will be maintained in the subcommittee's permanent record.]

    Senator Webb. Thank you very much, Dr. Herman.
    Dr. Sutter, welcome.

    STATEMENT OF ROBERT SUTTER, VISITING PROFESSOR OF ASIAN 
         STUDIES, GEORGETOWN UNIVERSITY, WASHINGTON, DC

    Dr. Sutter. Thank you very much, Mr. Chairman. It's a 
pleasure for me to be here and talk with you about this 
important topic.
    It is an ongoing challenge of U.S. policymakers to find an 
appropriate balance in promoting American values abroad, on the 
one hand, while sustaining important security, economic, and 
other interests and relations with Asian governments that do 
not share our values, on the other hand.
    My argument is that the United States is in a strong 
position to promote its values in Asia, and has various ways to 
do so that will not seriously disrupt other U.S. interests, 
even with governments that do not share American values.
    Coercion and pressure may be needed to promote U.S. values 
in the face of egregious violations of U.S.-supported norms, 
but the United States seems better advised to use its strong 
position as the responsible leader in the region to advance the 
values Americans hold dear in less confrontational ways.
    I see four major strengths of the United States in Asia 
that often don't get enough attention, it seems to me.
    No. 1, security. In most of Asia, governments are strong, 
viable, and make decisions that determine direction in foreign 
affairs. Popular elite media and other opinion may influence 
government officials and policy toward the United States and 
other countries, but, in the end, the officials make decisions 
on the basis of their own calculus. In general, the officials 
see their governments' legitimacy and success resting on 
nation-building and economic development, which require a 
stable and secure international environment.
    Unfortunately, Asia is not particularly stable, and most 
governments, privately, are wary of, and tend not to trust, 
each other. As a result, they look to the United States to 
provide the security they need to pursue goals of development 
and nation-building in an appropriate environment. They 
recognize that the U.S. security role is very expensive and 
involves great risk, including large-scale casualties, if 
necessary, for the sake of preserving Asian security. They also 
recognize that neither rising China, nor any other Asian power 
or coalition of powers, is able or willing to undertake even a 
fraction of these risks, costs, and responsibilities.
    Second strength, economic. The nation-building priority of 
most Asian governments depends, importantly, on export-oriented 
growth. Chinese and Asian trade heavily is dependent on exports 
to developed countries, notably the United States. And we all 
know about the United States recent trade deficits with China 
and with Asian traders. Asian government officials recognize 
that China, which runs a large overall trade surplus, and other 
trading partners in Asia are unwilling and unable to bear even 
a fraction of the cost of such large trade deficits that are 
very important for the Asian government's agenda.
    Third feature has to do with government engagement and 
Asian contingency planning. The Obama administration inherited 
a U.S. position in Asia, buttressed by generally effective Bush 
administration interaction with Asia's powers. The Obama 
government has moved to build on these strengths, notably with 
a series of initiatives designed to remove obstacles to closer 
U.S. cooperation with ASEAN and Asian regional organization. 
Its emphasis on consultation and inclusion of international 
stakeholders before coming to policy decisions on issues of 
importance to Asia also has been broadly welcomed and stands in 
contrast with the previously perceived unilateralism of the 
U.S. Government.
    Meanwhile, in recent years the U.S. Pacific Command and 
other U.S. security apparatus have been at the edge of wide-
ranging and growing U.S. efforts to build and strengthen webs 
of military relationships throughout the region. Part of the 
reason for the success of these efforts has to do with active 
contingency planning by many Asian governments. As power 
relations change in Asia--notably on account of China's rise--
Asian governments generally seek to work positively and 
pragmatically with rising China, on the one hand, but, on the 
other hand, they seek the reassurance of close security, 
intelligence, and other ties with the United States, in case 
rising China shifts from its current generally benign approach 
to one of greater assertiveness or dominance.
    And a fourth feature, which gets very little attention, it 
seems to me, has to do with nongovernment U.S. engagement and 
immigration. And here, my friend Dr. Herman is an excellent 
example of nongovernment U.S. engagement with Asia. For much of 
its history, the United States exerted influence in Asia much 
more through business, religious, education, and other 
interchange than through channels dependent on government 
leadership and support. Active American nongovernment 
interaction with Asia continues today, putting the United 
States in a unique position, where American nongovernment 
sector has such a strong and usually positive impact on the 
influence of the United States exerts in the region.
    Meanwhile, over 40 years of generally colorblind U.S. 
immigration policy since the ending of discriminatory U.S. 
restrictions on Asian immigration in 1965 has resulted in an 
influx of millions of Asian migrants who call America home and 
who interact with their countries of origin in ways that 
undergird and reflect well on the U.S. position in Asia. No 
other country, with the exception of Canada, has such an active 
and powerfully positive channel to influence Asia.
    So, what does this mean for American values in Asia? These 
four sets of determinants of U.S. strengths show the United 
States is deeply integrated in Asia at the government and the 
nongovernmental level. U.S. security commitments and trade 
practices meet the fundamental security and economic needs of 
Asian government leaders, and those leaders know it. The 
leaders also know that neither rising China nor any other power 
or coalition or powers is able or willing to meet even a small 
fraction of these needs.
    Meanwhile, Asian contingency planning seems to work to the 
advantage of the United States, while rising China has no easy 
way to overcome pervasive Asian wariness of China's longer term 
intentions.
    So, what should the United States do in using this 
influence in order to deal with values that it holds dear? 
There are obvious choices in this regard. One is the option of 
the United States trying to soft pedal its concerns with values 
in the interest of pragmatic interaction with countries such as 
China. This has been the case in the past, and it hasn't worked 
out very well in U.S. history.
    At the other end of the spectrum are policy options that 
are assertive and unilateral in dealing with salient human 
rights and democracy questions in Asia. As shown above, U.S. 
values are not among the most salient aspects of U.S. strength 
among the generally pragmatic decisionmaking officials in Asia 
who are focused on nation-building and national legitimacy. 
American values and support of transparent decisionmaking, open 
markets, and good governance do indirectly or directly 
reinforce the salient U.S. strengths. However, a strong U.S. 
insistence on its values in various policy areas that are 
value-laden probably would result in serious and disruptive 
changes in the prevailing Asian order.
    Between these extremes, there is much the United States can 
do to promote American values in Asia. U.S. care and 
attentiveness in dealing with security and economic 
responsibilities in the region highlight the positive example 
of the United States for Asian elites and popular opinion. A 
good American stewardship protecting the common goods important 
to all redounds to the benefit of U.S. officials pursuing their 
approach to American values, and also redounds to the benefit 
of nongovernment Americans pursuing these kinds of interests, 
as well.
    And so, the Obama government has moved to improve U.S. 
stewardship in Asia with its consultative-engagement approach, 
and, in this context, it's been quite effective in raising the 
salience and improving the image of the United States in the 
region.
    And so, how should the United States promote American 
values like human rights while dealing in a consultative way 
with Asian governments' leaders? This seemed on display when 
President Obama spoke about this at the China/United States 
dialogue last year. He basically said--I quote this in my 
prepared statement--he basically said, ``This is who we are. We 
will pursue our values because this is what Americans are.''
    And so, I would conclude by saying, remembering and being 
who we are, as American officials and nongovernmental U.S. 
representatives supporting human rights and other American 
value in interaction with Chinese or other Asian government 
officials opposed to or challenged by these values, should 
continue strongly. By and large, these governments want to 
improve relations with the United States, the Asian regional 
leader on whom they depend. They know who we are and obviously 
should not, and do not, expect us to change in order to favor 
their political interests.
    In general, I believe they will live with, and hopefully 
gradually adjust to, a regional and world order heavily 
influenced by the United States through example, responsible 
stewardship of common goods, and persistent but respectful 
advocacy.
    Thank you.
    [The prepared statement of Dr. Sutter follows:]

   Prepared Statement of Robert Sutter, Visiting Professor of Asian 
Studies, School of Foreign Service, Georgetown University, Washington, 
                                   DC

    Chairman Webb, members of the subcommittee, thank you for the 
opportunity to testify on this important topic.
    It is an ongoing challenge of U.S. policymakers to find an 
appropriate balance in promoting American values abroad on the one 
hand, while sustaining important security, economic, and other 
interests in relations with Asian governments that do not share our 
values on the other.
    My argument is that the United States is in a strong position to 
promote its values in Asia and has various ways to do so that will not 
seriously disrupt other U.S. interests, even with governments that do 
not share American values. Coercion and pressure may be needed to 
promote U.S. values in the face of egregious violations of U.S.-
supported norms, but the United States seems better advised to use its 
strong position as the responsible leader in the region to advance the 
values Americans hold dear in less confrontational ways.
                         u.s. strengths in asia
    It often has been fashionable for media commentators, specialists, 
and others to discern evidence of American decline in Asia. Today's 
projections of U.S. leadership being overshadowed by rising China 
recall the common view after the fall of Saigon that the Soviet Union 
was expanding to regional leadership while the United States declined; 
and the common view in the 1980s that Japan's economic ``juggernaut'' 
was marginalizing America's leading role. The projections of U.S. 
decline often have a common pattern: They emphasize the strengths of 
the rising power and emphasize U.S. weaknesses. They tend to soft-pedal 
or ignore the weaknesses of the rising power and the strengths of the 
United States.
    More balanced treatment shows the United States in a strong 
leadership position in Asia based on four sets of factors.
Security
    In most of Asia, governments are strong, viable, and make the 
decisions that determine direction in foreign affairs. Popular, elite, 
media and other opinion may influence government officials in policy 
toward the United States and other countries, but in the end the 
officials make decisions on the basis of their own calculus. In 
general, the officials see their governments' legitimacy and success 
resting on nation-building and economic development, which require a 
stable and secure international environment. Unfortunately, Asia is not 
particularly stable and most governments privately are wary of and tend 
not to trust each other. As a result, they look to the United States to 
provide the security they need to pursue goals of development and 
nation-building in an appropriate environment. They recognize that the 
U.S. security role is very expensive and involves great risk, including 
large scale casualties if necessary, for the sake of preserving Asian 
security. They also recognize that neither rising China nor any other 
Asian power or coalition of powers is able or willing to undertake even 
a fraction of these risks, costs, and responsibilities.
Economic
    The nation-building priority of most Asian governments depends 
importantly on export oriented growth. Chinese officials recognize 
this, and officials in other Asian countries recognize the rising 
importance of China in their trade; but they all also recognize that 
half of China's trade is done by foreign invested enterprises in China, 
and half of the trade is processing trade--both features that make 
Chinese and Asian trade heavily dependent on exports to developed 
countries, notably the United States. In recent years, the United 
States has run a massive trade deficit with China, and a total trade 
deficit with Asia valued at over $350 billion at a time of an overall 
U.S. trade deficit of over $700 billion. Asian government officials 
recognize that China, which runs a large overall trade surplus, and 
other trading partners of Asia are unwilling and unable to bear even a 
fraction of the cost of such large trade deficits, that are very 
important for Asia governments.
    Obviously, the 2008-09 global economic crisis is having an enormous 
impact of trade and investment. Some Asian officials are talking about 
relying more on domestic consumption but tangible progress seems slow 
as they appear to be focusing on an eventual revival of world trade 
that would restore as much as possible previous levels of export-
oriented growth involving continued heavy reliance on the U.S. market. 
How cooperative China actually will be in working with the United 
States to deal with the various implications of the economic crisis 
also remains an open question, though the evidence on balance appears 
to show great care on the part of the Chinese administration to avoid 
pushing controversial policies that would further undermine 
international confidence in the existing economic system and thwart 
meaningful efforts at economic recovery. The Chinese leadership appears 
to give priority to stability in its continued adherence to 
international economic patterns that feature the leading role of the 
U.S. dollar, strong direct and indirect U.S. influence on foreign 
investors in China, and the United States as a market of top priority 
for Chinese products.
Government Engagement and Asian Contingency Planning
    The Obama administration inherited a U.S. position in Asia 
buttressed by generally effective Bush administration interaction with 
Asia's powers. It is very rare for the United States to enjoy good 
relations with Japan and China at the same time, but the Bush 
administration carefully managed relations with both powers 
effectively. It is unprecedented for the United States to be the 
leading foreign power in South Asia and to sustain good relations with 
both India and Pakistan, but that has been the case since relatively 
early in the Bush administration. And it is unprecedented for the 
United States to have good relations with Beijing and Taipei at the 
same time, but that situation emerged during the Bush years and 
strengthened with the election of Taiwan President Ma Ying-jeou in 
March 2008.
    The Obama government has moved to build on these strengths, notably 
with a series of initiatives designed to remove obstacles to closer 
U.S. cooperation with ASEAN and Asian regional organizations. Its 
emphasis on consultation and inclusion of international stakeholders 
before coming to policy decisions on issues of importance to Asia also 
has been broadly welcomed and stands in contrast with the previously 
perceived unilateralism of the U.S. Government.
    Meanwhile, in recent years, the U.S. Pacific Command and other U.S. 
military commands and organizations have been at the edge of wide-
ranging and growing U.S. efforts to build and strengthen webs of 
military relationships throughout the region. In an overall Asian 
environment where the United States remains on good terms with major 
powers and most other governments, building military ties through 
education programs, onsite training, exercises, and other means 
enhances U.S. influence in generally quiet but effective ways. Part of 
the reason for the success of these efforts has to do with active 
contingency planning by many Asian governments. As power relations 
change in the region, notably on account of China's rise, Asian 
governments generally seek to work positively and pragmatically with 
rising China on the one hand; but on the other hand they seek the 
reassurance of close security, intelligence, and other ties with the 
United States in case rising China shifts from its current generally 
benign approach to one of greater assertiveness or dominance.
Nongovernment Engagement and Immigration
    For much of its history, the United States exerted influence in 
Asia much more through business, religious, educational, and other 
interchange than through channels dependent on government leadership 
and support. Active American nongovernment interaction with Asia 
continues today, putting the United States in a unique position where 
the American nongovernment sector has such a strong and usually 
positive impact on the influence the United States exerts in the 
region. Meanwhile, over 40 years of generally color-blind U.S. 
immigration policy since the ending of discriminatory U.S. restrictions 
on Asian immigration in 1965 has resulted in the influx of millions of 
Asian migrants who call America home and who interact with their 
countries of origin in ways that under gird and reflect well on the 
U.S. position in Asia. No other country, with the exception of Canada, 
has such an active and powerfully positive channel of influence in 
Asia.
     implications and policy options for promoting american values
    These four sets of determinants of U.S. strengths show that the 
United States is deeply integrated in Asia at the government and 
nongovernment level. U.S. security commitments and trade practices meet 
fundamental security and economic needs of Asian government leaders and 
those leaders know it. The leaders also know that neither rising China 
nor any other power or coalition of powers is able or willing to meet 
even a small fraction of those needs. Meanwhile, Asian contingency 
planning seems to work to the advantage of the United States, while 
rising China has no easy way to overcome pervasive Asian wariness of 
Chinese longer term intentions.
    Though a lot is written about the so-called Beijing consensus and 
the attractiveness of the Chinese ``model'' to Asian and other 
governments, the fact remains that the Chinese leadership continues to 
emphasize a narrow scope of national interests and assures that its 
policies and practices serve those interests. Thus, China tends to 
avoid the types of risks, costs, and commitments in security and 
economic areas that undergird the U.S. leadership position in Asia. By 
and large, Asian government officials understand this reality. China 
continues to run a substantial trade surplus and to accumulate large 
foreign exchange reserves supported by currency policies widely seen to 
disadvantage trading competitors in Asia and elsewhere. Despite its 
economic progress, China annually receives billions of dollars of 
foreign assistance loans and lesser grants from international 
organizations like the World Bank and the Asian Development Bank and 
from foreign government and nongovernment donors that presumably would 
otherwise be available for other deserving clients in Asia and the 
world. It carefully adheres to U.N. budget formulas that keep Chinese 
dues and other payments remarkably low for a country with Chinese 
international prominence and development. It tends to assure that 
China's contributions to the broader good of the international order 
(e.g., extensive use of Chinese personnel in U.N. peacekeeping 
operations) are paid for by others. At bottom, the ``win-win'' 
principle that undergirds recent Chinese foreign policy means that 
Chinese officials make sure that Chinese policies and practices provide 
a ``win'' for generally narrowly defined national interests of China. 
They eschew the kinds of risky and costly commitments for the broader 
regional and global common good that Asian leaders have come to look to 
U.S. leadership to provide.
Policy Options
    In sum, the main question for U.S. policymakers is how to use the 
leverage and influence that comes from U.S. leadership in Asia in order 
to promote American values without major negative side effects.
    At one end of available options is an overly cautious approach by 
the U.S. Government seeking to avoid raising issues of values in a 
pragmatic effort to build better ties with Asian governments that 
oppose American values. U.S. policy toward China often has seen U.S. 
policymakers strongly identified with human rights promotion (e.g., 
Jimmy Carter, George W. Bush) appear to pull their punches in seeking 
better relations with Chinese leaders. This policy approach has proven 
unsustainable over the long term in an American political context, even 
though it may provide some expedient benefit for the U.S. Government in 
dealing with China over the short term.
    At the other end of the spectrum of policy options is an assertive 
and unilateral U.S. posture on salient issues of human rights questions 
and other value-laden subjects. As shown above, U.S. values are not 
among the most salient aspects of U.S. strength among the generally 
pragmatic decisionmaking of officials in Asia focused on nation-
building and national legitimacy. American values in support of 
transparent decisionmaking, open markets and good governance do 
indirectly or directly reinforce the salient U.S. strengths. However, 
the strong U.S. insistence on its values in this policy option would 
probably result in serious and disruptive changes in the prevailing 
Asian order; Asian governments challenged by the U.S. insistence on its 
values, even Asian states that relied on the security and economic 
support provided by the United States, would feel compelled to seek 
their interests in a more uncertain environment of less reliance on and 
more distance from or even opposition to the United States.
    Between these extremes, there is much the United States can do to 
promote American values in Asia. U.S. care and attentiveness in dealing 
with security and economic responsibilities in the region highlight the 
positive example of the United States for Asian elites and popular 
opinion. Good American stewardship protecting the common goods 
important to all redounds to the benefit of U.S. officials pursuing 
policies promoting American values; it also benefits the wide array on 
nongovernment American organizations and entities that interact with 
counterparts throughout the region, frequently explicitly and more 
often implicitly, promoting American values. As Asian officials, elites 
and public opinion see their success in nation-building tied to the 
effective and responsible policies and practices of the United States, 
they likely will be inclined to emulate American policies and practices 
at the root of U.S. leadership and strength. These include those values 
supported by the United States.
    Improving on U.S. stewardship in Asia, the Obama government has 
adjusted U.S. policy in order to build on the strengths inherited from 
the Bush administration while correcting some weaknesses. The new U.S. 
Government stresses consultative engagement and greater attention to 
the interests and concerns of Asian leaders. U.S. leaders should 
continue to use U.S. power and leadership in close consultations with 
Asian governments in order to establish behaviors and institutions in 
line with longstanding U.S. interests and values. Listening to and 
accommodating whenever possible the concerns of Asian governments helps 
to insure that decisions reached have ample support in the region. The 
Obama government has gone far to change the U.S. image in Asia from a 
self absorbed unilateralist to a thoughtful consensus builder.
    How the United States should seek to promote American values like 
human rights while dealing in a consultative way with Asian government 
leaders seemed on display when President Obama spoke to the annual 
Sino-American leadership dialogue meeting in Washington in July 2009. 
He advised his Chinese colleagues that the American Government did not 
seek to force China to conform to its view of human rights but it would 
nonetheless continue to press China and others to conform to the values 
of human rights that are so important to the United States. He said:

          Support for human rights and human dignity is ingrained in 
        America. Our nation is made up of immigrants from every part of 
        the world. We have protected our unity and struggled to perfect 
        our union by extending basic rights to all our people. And 
        those rights include the freedom to speak your mind, to worship 
        your God, and to choose your leaders. They are not things that 
        we seek to impose--this is who we are. It guides our openness 
        to one another and the world.

    Remembering and being ``who we are'' as American officials and 
nongovernment U.S. representatives supporting human rights and other 
American values in interactions with Chinese or other Asian government 
officials opposed to or challenged by those values should continue 
strongly in my judgment. By and large, these governments want to 
improve relations with the United States, the Asian regional leader on 
whom they depend. They know who we are and obviously should not and do 
not expect us to change in order to favor their political interests. In 
general, I believe they will live with and hopefully gradually adjust 
to a regional and world order heavily influenced by the United States 
through example, responsible stewardship of common goods, and 
persistent but respectful advocacy.

    Senator Webb. Thank you very much, Dr. Sutter.
    I appreciate the viewpoints expressed by both of you in 
your testimony, and also thank you, again, for your willingness 
to come here today and to be a part of this hearing.
    Let me, first, ask for both of your--I'm going to start 
with Dr. Herman's viewpoint on where we are strongest and where 
we are weakest, in East Asia and Southeast Asia, in terms of 
nongovernmental involvement. And I know, from my own personal 
experience, how important that is, in terms of communicating to 
the average citizen on the street, what exists outside of their 
own society, and, in others, just simply helping to create 
further understanding, even among different governments, about 
the real intentions of the United States and with respect to 
how we view our own culture and what it is that we stand for.
    Where are we good and where are we not good, Dr. Herman?
    Dr. Herman. Well, I think as--it won't come as a surprise 
to say that I think it's a bit of a mixed record. U.S. NGOs, 
like Freedom House and others, have had, I think, a 
longstanding relationship, and building partnerships in that 
part of the world, trying to strengthen regional networks of 
activists in that part of the world--I think one of the tools 
in the--or one of the--in the toolbox of authoritarian states--
is to try to isolate their citizens, especially their 
activists, both from one another in the country, but also in 
terms of transnational linkages, regionally and more globally. 
And I think what a lot of civil society groups from the 
outside, United States and others, have tried to do is provide 
a way of reaching out to them, also sometimes giving them a 
forum in order to come together, discuss common strategies, 
common experiences. So, I think that's one of the most valuable 
contributions that have been made by the U.S. NGOs.
    It varies, in terms of where we can do this. The more 
repressive the society, the harder it is to do that. In places 
like China, where you have more people traveling, perhaps, than 
you do in others, there are these networks that are 
established. In places like Laos or Cambodia, I think it's much 
harder.
    But, what's--again, what's encouraging to me is that, in 
all of the societies, even the most repressive ones, perhaps 
with the exception of North Korea, there is emerging a civil 
society overcoming the constraints that they face in order to, 
again, organize themselves politically, domestically, sometimes 
through the Internet--that seems to be one of the most 
promising mechanisms for doing that--but, increasingly, looking 
even beyond their countries.
    I think, also, one of the important developments here is 
the role of Indonesia and other emerging democracies. To be 
discussing, not only with their fellow governments about the 
roles that NGOs--that they have nothing to fear; in fact, NGOs 
can be a partner in the development process. Of course, the 
reality is, in many of these societies, they are seen as a 
threat, in part because they are viewed as trying to dislodge, 
from their privileged position of power, those who hold power.
    And so, I think what the U.S. Government can do, as we said 
before, both engaging those governments, but also providing 
support that's needed to do two things. One, engage also with 
the citizenries of those countries directly. We do that through 
a whole variety of ways. But, also take advantage of something 
that Dr. Sutter had said--the great strength of the United 
States is, in part, its own civil society. And that has 
enormous benefits. We can do--both NGOs and U.S. Government can 
do, I think, a much better job, across the board, in trying to 
elevate the status, the standing, and the legitimacy of civil 
society in those countries.
    Oftentimes, these governments will go to great lengths to 
tarnish their reputation, to call into question their 
patriotism, and the rest. I think there's a lot that we can do, 
by bringing them together in regional fora, and others, to talk 
about strategies to combat that tactic on the part of 
governments.
    Senator Webb. Thank you.
    Dr. Sutter. If I could, I'd like to----
    Senator Webb. Yes.
    Dr. Sutter [continuing]. Broaden the scope, when you say 
``nongovernment involvement,'' because I really think it's so 
broad. And this is what I really would hope we'd consider in 
this kind of issue--and the impact of the United States.
    Business. Business is nongovernment. And in China, it isn't 
always nongovernment, as you know.
    And you talk about--you mention China and this ASEAN Free 
Trade Agreement, and so China does more trade with ASEAN than 
the United States now. But, China's trade with ASEAN is 11 
percent of ASEAN's trade. It's 11 percent. It's not enormous.
    And so, China runs a $20 billion trade surplus with ASEAN, 
whereas the United States runs a $20 billion trade deficit with 
ASEAN. And the ASEANs appreciate the deficit more than they 
appreciate the surplus.
    And China's investment in ASEAN--this is according to ASEAN 
Web site figures--China's investment in ASEAN is 2 percent 
whereas U.S. investment is much larger.
    And so, business has a big impact in all areas. This is 
just one example.
    And then, education. I come from Georgetown University. We 
do all sorts of things with the countries of Asia. And we--and 
all the universities I'm familiar with--do all sorts of things 
with the countries in Asia. This has been going on for years--
for decades.
    Foundations. And then, religious institutions, the Catholic 
Church. Georgetown is a Jesuit Catholic university--these 
various religious groups foundations and others do all sorts of 
interaction throughout the region--as well as immigrants, 
individual immigrants and what they do.
    And so, when we add all this up, you don't have to be an 
advocate, you don't have to be part of an organization pushing 
for certain things; this is where example comes into play. This 
is where the impact of the United States is felt everywhere you 
look. And I didn't even get into the media.
    And so the point I would urge everyone to think about is 
that this nongovernmental impact of the United States is 
enormous in Asia. And it has been enormous for a long, long 
time. This is not new. And it's generally positive, and 
generally, I think, it moves Asia in this kind of--in the 
direction that you--that we all would like to see.
    Senator Webb. Right. Actually, I appreciate that. That was 
the intended nature of my question. Not simply to focus on 
NGOs. Even going back to the discussion I had with Secretary 
Campbell about Vietnam in the 1990s, when it was beginning to 
open up. There were a lot of private initiatives, just people 
who affiliated with veterans organizations, incipient business 
attempts, these sorts of things. Bringing people out----
    Dr. Sutter. People like John McAuliff.
    Senator Webb. A lot of different people. I did a lot of it 
myself. So, I fully agree with you.
    But, with respect to the China-ASEAN trade agreement, I 
think we need to be clear here, it was just signed, as of this 
month. And the numbers that exist right now don't necessarily 
represent what this is going to look like if we do not engage 
in a similar way, in my view.
    They are looking at dropping their tariff rates down to, 
basically, zero in the fairly near future. And we are now 
attempting to put together something, but we have yet to do so.
    And also, that ties in to the security situation in the 
region, which you mentioned and which is, you know, true, in 
the way that you mentioned it, but also is occurring in the 
face of expanded Chinese military operations, including, just 
recently, the announcement that China and the Thais are going 
to do a fairly large cooperative military operation.
    So, I'm saying this, as a way of attempting to communicate, 
here, how vital it is that the United States remain involved, 
on a security level, but also in a business, economic level, 
and cultural level--I've said this many, many times--in the 
region. We are a very important balancing point in the region. 
And we tend, I think, too often, simply to think of that in 
national security terms, up here. But, it's an across-the-board 
concern that we have.
    And I see that you wanted to say something, Dr. Sutter, so 
you're certainly welcome to.
    Dr. Sutter. Oh, I just--on the China ASEAN--the China--the 
initial agreement was signed in--the intent was 2002. It's been 
undergoing development. It's now reached the point where it's 
ready to be implemented, but parts of it have been implemented 
over the course of 2002 to 2010.
    And this is a very common pattern in ASEAN trade. No 
country has more than 12 percent of trade with ASEAN. It's a 
very diversified trade, so it's--that's just a minor point, 
sir. But it----
    Senator Webb. But in terms of actual tariff arrangements 
and these sort of things the agreement went into effect this 
month.
    Dr. Sutter. It probably will have some effect. I'm not sure 
how much, I wouldn't--I guess, my point is that often, China's 
depicted as this controlling power in Asia. And my sense is--
and I've tried to examine this very carefully--the United 
States is the leading power of Asia. And China knows this. And 
until China really undertakes risks, costs, and commitments 
that it wouldn't ordinarily do, China's really not going to be 
seen as a leader of Asia. And it doesn't do risks, costs, and 
commitment that it wouldn't ordinarily do, because it's too 
risky and too costly, and they don't do this. And the United 
States does.
    Senator Webb. Well, first of all, my viewpoint, and the 
viewpoint of a lot of people with whom I agree, is not that 
China is the controlling power in Asia. It is an expansionist 
nation, by virtue of its growing economic power, the 
accumulation of its reserves, and where it is investing. 
Actually, the other side of that equation is where my concern 
is, and that, it is vital for the United States to remain 
actively involved in the region. Our trade numbers have not 
looked good over the last couple of years in the region, 
particularly last year, part of that being, obviously, the 
recession. And so, this is more an attempt to speak 
affirmatively about how vital this region is to the United 
States than to speak negatively about the fact that China is 
becoming more active.
    Dr. Sutter. I fully agree, sir. And I applaud your efforts 
in doing this. I very much do. I think that this is what should 
be our focus, is the United States--what are our interests and 
how do we expand them? Because we have tremendous interest in 
the region.
    Senator Webb. And there is a question that derives from 
that, though, and it's one of the purposes of the hearing, and 
I would appreciate getting both of your thoughts on it. And 
that is, To what extend does the United States become 
vulnerable through an increasing dependence on a governmental 
structure that's not like our own? And I think it's a 
worthwhile question. I'd like to hear your thoughts.
    Dr. Sutter. Are you referring to China, sir, or the----
    Senator Webb. The interdependence we have with the Chinese 
Government.
    Dr. Sutter. Yes. Yes, it's--in my view, it's a very--it's a 
constraining factor on both sides. This interdependence is 
something that--in a way, we tried--this is part of our plan. I 
mean, we wanted to engage China. And by engagement, we brought 
them into these various webs of relationships, economic 
relationships. And that made us more interdependent with China.
    And China has worked assiduously to make the United States 
economically interdependent with it. And this constrains our 
ability to do things that we would like to do in areas of 
differences with China, in a hard way, because we're 
interdependent. It makes it very difficult to do that. And they 
have the same constraint.
    And so, even though our interests and values drive us 
against each other, neither side is really going to take tough 
action to do this, because they have the interdependence. 
It's--both sides, in a way, followed a Gulliver strategy. They 
tried to web down the other side so that they wouldn't do 
negative things. We certainly tried that, and did it, and it 
worked. China is much more cooperative than it was 25 or 30 
years ago. And so--and, at the same time, they did it to us.
    And so, we're in that sort of situation where it's harder, 
in areas of differences like human rights and values, for us to 
really put that as a top priority and push hard on that issue, 
because it affects these other interdependencies that we have.
    And so, yes, we have, I think, a realistic view of the 
situation.
    Senator Webb. Dr. Herman.
    Dr. Herman. You know, whether it constrains behavior, I'll 
defer to Professor Sutter, but I think the logic behind 
interdependence, not just economically, but also that it was 
going to create an open space, as you said before, to make 
these closed societies more open; more open in terms of what 
citizens could do; more open in terms of the ability for people 
to engage with the outside world, not just through commerce and 
business, but also through the flow of ideas and information. 
We've seen a little bit of that with the Internet.
    But, I think, for those who thought that opening them up--
opening up China or Vietnam or other countries to commerce was 
going to lead us on a path that inexorably would lead to 
democracy, I think we've seen that that's not necessarily the 
case. Which goes back, I think, to the earlier point that 
democracy, human rights have to be part of the dialogue, on an 
ongoing, consistent basis. I think, it's what you said before, 
people are looking to us for that consistency. How we apply 
that may vary from country to country--as we've said before, 
the constellation of opportunities and challenges is going to 
vary--but, I think we should be very clear, in terms of that we 
lead with those values that--and we are determined, I think, 
to, again, engage the citizenries in the society, to help give 
them a voice.
    I mean, ultimately, this is--the fate of these societies 
and their political evolution rests not with us, the United 
States Government or NGOs, it rests with the citizens. We're in 
a supporting role, at best. But, to the extent that we can help 
create more space for them, for the bloggers, for activists, 
for others to begin to raise these issues with their own 
governments, that's the key.
    The other--one other thing I wanted to mention is that--in 
my testimony I had talked about a siege, really, that's 
happening against activists. The leading authoritarian states 
in the world, which includes China and countries like Russia 
and others, many of them petro-authoritarian states, they're 
not just putting the clamps on their own populations, they are 
engaging more and more in efforts to weaken regional and global 
institutions that have democracy and human rights as part of 
their mandates, so whether that's the OSCE or the OAS, in terms 
of Venezuela--but, we also see that, a little bit, in terms of 
Asia, where the infrastructure for democracy and human rights 
has been much behind what we've seen in other regions of the 
world.
    In this last trip, I was very taken by the fact that the 
democracy and human rights activists that I talked with--this 
new mechanism that's been created at ASEAN, they're intent on 
using it. They were also very, very interested to see what the 
experiences is of other democracy and human rights activists in 
other regions, and how they can access this mechanism, again, 
in order to be able to bring more pressure to bear on these 
authoritarian governments.
    Moreover, these linkages that are created, I think, it's 
important to remember, not only are they sometimes a lifeline 
to these human rights activists, they also are transmission 
belts for ideas, for values. It's part of what you said 
earlier, before, How do we try to open up these societies? And 
I think there is a whole panoply of ways that we do that. And, 
as you said, NGOs, business community, that's all part of the 
equation.
    Senator Webb. Well, that actually leads to, maybe, a 
question that could be the final summation of our hearing here. 
We have clearly articulated, from a governmental perspective, 
different standards, in terms of electoral process, openness of 
the media, freedom of movement, et cetera--China, Japan, 
Vietnam, Thailand, Burma. How would you both say that is 
interpreted among people who are in the region, looking at the 
consistency, or lack thereof, of American policy?
    Dr. Sutter. I'm not sure we have articulated a different 
standard, sir. Maybe, in practice, it's carried out in 
different ways. And I think Mr. Campbell made it clear why the 
priorities will be different in different situations.
    If you look at the State Department Report on Human Rights, 
I think it's pretty consistent. I've been reading it for a 
long, long time, and it's very consistent, it seems to me, in 
the issues they look at, and that's the U.S. Government 
position----
    Senator Webb. Well, if I may, right there----
    Dr. Sutter. Yes, sir.
    Senator Webb [continuing]. Because, you know, as I said to 
Secretary Campbell, we tend to focus on human rights, which are 
separate from governmental systems, in terms of analysis. But, 
if you're looking at the approach that we have taken, in terms 
of actually how governments operated, we have taken different 
positions on these different positions on these different 
countries. And some of them--for instance, as I mentioned 
earlier, the Thais, who I think have worked very hard over a 
long period of time to open up their society, they've got great 
free press--even after the military coup, the local elections 
went forward. We take one standard on electoral process in a 
place like Thailand, and then we'll say--or we will not say, to 
Vietnam or China, that they should even have elections. I'm not 
saying today that we should say that. And then when the junta, 
in Burma, says they are going to have elections, it's a flawed 
process, we know it's a flawed process, but it's allowing an 
opposition party. There are no opposition parties in Vietnam, 
and there are no opposition parties in China. So, if you're 
sitting on the ground in Asia, you're seeing that there are a 
variety of different policies, in terms of their articulation 
from the government. And how do people digest that?
    Dr. Sutter. I've done a lot of interviewing in Asia. This 
issue has come up from time to time. That's the basis of what 
I'm going to say. And I think they see it as, basically, a 
factor of interest, that you have certain interests in China, 
so therefore, you don't push very hard with China in a public 
demeanor. You have a dialogue, which is secret. Nobody knows 
what's going on in the dialogue. And that's how you handle 
human rights with China.
    Whereas, the examples you gave of smaller countries being 
given more pressure in a public way--and so, it's a matter of 
interest. It's interpreted that the United States has big 
interests with China, and therefore, it doesn't do these kinds 
of things. And I think that's not an unfair judgment, it seems 
to me. I think that is what happens. And we can try to explain 
it in various ways, but I think that is why the 
differentiation. I think, because if we pushed hard on China, 
it would be, probably, counterproductive given the 
circumstances.
    So, you have to look at the circumstances. And it really 
makes it hard to have this consistent approach, because that 
puts human rights--look at the way we have dealt with China 
over the past 20 years. The Congress, 20 years ago, was focused 
on China in such a negative way; it's very different now, very 
different. We learned. I mean, I assume we learned. And so, if 
there's not even consistency with China, I think this is 
subject to circumstances and different interests and how they 
play. And therefore, you have to pursue these different things. 
It's not because you don't want to----
    Senator Webb. Well----
    Dr. Sutter [continuing]. It's because you have these 
other----
    Senator Webb [continuing]. This is the division, in terms 
of the debate.
    Dr. Sutter. Yes.
    Senator Webb. You know, some people would say we have to 
adjust to different conditions, other people would say we don't 
have consistent standards. And there are realities in play. 
But, this is the perception we're trying to examine in this 
hearing.
    And, Dr. Herman.
    Dr. Herman. Yes, I just wanted to say--from the standpoint, 
I think, of the activists that we deal with, I've noticed an 
increased sophistication on the part of these activists, which 
is to say that they recognize that the United States has a 
multiplicity of interests. They also look to the United States 
for leadership in Asia, especially in terms of democracy and 
human rights, speaking out, also, hopefully, comporting 
ourselves in ways that are consistent with our values and our 
ideals. I think they're very sensitive when there is a gap 
between the two.
    But, I think they recognize that, how the United States is 
going to pursue support for democracy and human rights is going 
to vary from country to country. Indeed, many of the activists 
from these more closed societies, they want the U.S. Government 
to engage with their government. They don't want strategies of 
isolation, for all the reasons you said before. But, at the 
same time, they want to have confidence that the United States 
is going to continue to make sure that democracy and human 
rights is central to that engagement. I think that's where they 
worry. And, that's why I think public diplomacy is important. 
When the United States, whether it's Members of Congress, 
whether it's leadership, when they meet with activists in these 
societies, and do so in a public way, which sometimes runs 
risks because you can have the meeting, everybody goes home, 
and we know what happened to the activists. So, we have to be 
careful. We have to apply the ``do no harm'' principle. But, I 
can tell you, it makes a huge difference, in terms of the 
stature, the legitimacy of them, being elevated in the eyes of 
the citizenry in those countries.
    And I think that's part of this broader diplomatic strategy 
of not just engagement with the governments, but also with the 
civil societies. And it sends a very important message, also, 
to those governments to say, ``These are also our partners, as 
we try to move these countries forward in a variety of ways.''
    Senator Webb. Well, I thank you both very much for your 
testimony today, and for sharing your views.
    I think this has been a very good opportunity for us to 
exercise some oversight, here in the Congress, on the evolution 
of policy, and also, hopefully, to give all of us some things 
to think about, in terms of how the United States is perceived 
in this very vital part of the world.
    Thank you, again.
    This hearing is closed.
    [Whereupon, at 11:55 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


 Responses of Assistant Secretary Kurt Campbell to Questions Submitted 
                        by Senator Richard Lugar

    Question. As part of your confirmation hearing, you committed to 
working toward the return of the hundreds of American children who have 
been abducted by their Japanese parents. Please provide for the 
committee a comprehensive report on the meetings and activities related 
to this that you, Ambassador Roos, and other officials of the State 
Department have conducted since your confirmation. Did Secretary 
Clinton raise the issue with Japanese Foreign Minister Katsuya Okada 
during their meeting in Hawaii earlier this month, what commitments did 
she receive, and how will the Department follow up on those 
commitments?

    Answer. Secretary Clinton remains very committed to pressing Japan 
and other countries on the issue of international parental child 
abduction. She raised this issue during her first meeting with Foreign 
Minister Okada on November 11, and will continue to raise the issue in 
the future as opportunities arise. The Secretary did not discuss this 
issue during her January 12 meeting with FM Okada to discuss the U.S.-
Japan Security Alliance in Hawaii, but has ensured Department officials 
at all level engage with the Government of Japan frequently in order to 
keep the issue in the forefront of our bilateral relationship with 
Japan.
    The following is a list of the meetings and activities of 
Department of State officials have conducted regarding international 
parental child abduction since my confirmation:

  <bullet> June 30, 2009: Consul General (CG) Ray Baca met with Left 
        Behind Parents (LBP) in Nagoya to discuss his situation.
  <bullet> July 16, 2009: American Citizen Services (ACS) Chief Bill 
        Christopher met with representatives of newly established SOS-
        Japan, an organization for LBPs, regarding Embassy's assistance 
        to LBPs.
  <bullet> July 17, 2009: A/S Kurt Campbell raised International 
        Parental Child Abduction (IPCA) in a private meeting with Vice 
        Foreign Minister (FM) Yabunaka.
  <bullet> July 23, 2009: Charge d'affaires (CDA) James Zumwalt 
        participated in a demarche of Ministry of Justice (MOJ) with 
        Deputy Heads of Mission from the British, Canadian, and French 
        Embassies. Japanese MOJ Civil Affairs Bureau Director General 
        (DG) Mr. Masaru Hara received the demarche.
  <bullet> July 30, 2009: CDA James Zumwalt discussed the Hague 
        Convention on Child Abduction and the demarche by the United 
        States, United Kingdom, Canada, and France at MOJ with North 
        American Affairs DG Umemoto.
  <bullet> July 30, 2009: CDA James Zumwalt discussed child abduction 
        with MOJ International Legal Affairs DG Koji Tsuruoka.
  <bullet> August 28, 2009: Ambassador Roos raised child abduction with 
        Vice FM Yabunaka.
  <bullet> September 3, 2009: Tokyo CG Raymond Baca, Osaka Consular 
        Chief Dave Hillon chaired a Consular Conference Panel 
        Discussion on IPCA. Consular officers from Tokyo, Osaka, Naha, 
        Fukuoka, Sapporo, and Seoul; Tokyo DHS/CBP and ICE Officers; 
        DHS USCIS Officer from Seoul; and military legal assistance 
        office representatives attended.
  <bullet> September 9, 2009: CG Osaka issued passports to two 
        children, with only the consent of the Amcit father as per 
        instructions from the Department of State (DOS), Consular 
        Affairs Bureau. Children were taken from their home in the 
        United States in March 2008 by the Japanese mother, to whom the 
        father is still married. Passports were issued with the 
        father's signature only under Special Family Circumstances. 
        Father and children returned to United States.
  <bullet> September 10, 2009: ACS Chief Bill Christopher and ACS 
        Deputy Chief Joe Koen met with Ministry of Foreign Affairs 
        (MOFA) officials to discuss an IPCA related case. MOFA 
        attendees were Oyama Hiromoto and Yukiko Haromoto--Deputy 
        Directors First North America Division, North American Affairs 
        Bureau.
  <bullet> September 11, 2009: CG Ray Baca met with American parents in 
        Japan who are experiencing difficulties visiting their children 
        in Japan. CG updated them on meetings Ambassador and DOS 
        officials held with Government of Japan (GOJ) officials.
  <bullet> September 11, 2009: Consular Affairs/Overseas Citizen 
        Services/Children's Issues (CA/OCS/CI) Director Michael Regan, 
        CA/OCS/CI Ann McGahuey, Japan Desk Political Officer Todd 
        Campbell held negotiations related to the formation of a 
        working group to address the Hague Convention and resolution of 
        current IPCA cases. The Embassy of Japan was represented by 
        Legal Attache Yoshihiro Ohara, Consul Kiyoshi Itoi, 2nd 
        Secretary Zenichiro Uemura, 3rd Secretary Makiko Asami.
  <bullet> September 21, 2009: Under Secretary of State for Political 
        Affairs William Burns raised IPCA with Vice FM Mr. Mitoji 
        Yabunaka.
  <bullet> September 28, 2009: Fukuoka Principal Officer Margot 
        Carrington reports that an American citizen (Amcit) has been 
        detained by the police. PLEASE NOTE THIS CASE REOCCURS 
        THROUGHOUT THE TIMELINE UP THROUGH OCTOBER 29, 2009; RELATED 
        ENTRIES DENOTED WITH ASTERISK*.
  <bullet> September 29, 2009: *Fukuoka Consular Officer Jay Avecilla 
        visits Amcit arrested for allegedly kidnapping minors.
  <bullet> September 30, 2009: *Political Minister Counselor spoke with 
        Mr. Kazuyoshi Umemoto, DG First North American Affairs Bureau, 
        to express Embassy's concern about the arrest of Amcit for 
        allegedly kidnapping his children outside Fukuoka.
  <bullet> September 30, 2009: *Deputy Chief of Mission (DCM) James 
        Zumwalt called Mr. Kazuyoshi Umemoto, DG First North American 
        Affairs Bureau, to express concern about the Amcit arrest case 
        and the hope they could be released soon.
  <bullet> September 30, 2009: *In response to DCM James Zumwalt and 
        Political Minister's separate telephone conversations with MOFA 
        officials (see Sept 30), MOFA official called ACS Chief Bill 
        Christopher and reports the ``facts of the arrest.''
  <bullet> October 1, 2009: ACS Chief Bill Christopher met with MOFA 
        officials to discuss several IPCA cases.
  <bullet> October 1, 2009: DCM James Zumwalt called MOFA Deputy FM, 
        Koro Bessho, regarding an IPCA case, IPCA issues, and the Hague 
        Convention.
  <bullet> October 6, 2009: CA/OCS/CI Director Michael Regan, CA/OCS/CI 
        Ann McGahuey, Abduction Division Chief Marco Tedesco, and Japan 
        Desk Political Officer Todd Campbell negotiated formation of 
        working group to address the Hague Convention and resolution of 
        current IPCA cases. The Japanese Embassy was represented by 
        Legal Attache Yoshihiro Ohara, Consul Kiyoshi Itoi, 2nd 
        Secretary Zenichiro Uemura, 3rd Secretary Makiko Asami.
  <bullet> October 7, 2009: *Embassy Tokyo consular officer visits LBP 
        arrested for allegedly kidnapping minors. This is the third 
        jail visit since the September 28 incident. LBP says he wants 
        the consular officer to try to visit his children. Consular 
        staff calls Taking Parent (TP) but she refuses consular visit.
  <bullet> October 7, 2009: ACS Chief Bill Christopher hosts meeting 
        for consular officers from United States, Canada, France, 
        Italy, and United Kingdom meet regarding upcoming demarche. 
        Australia agrees to participate.
  <bullet> October 9, 2009: CG Ray Baca and ACS Chief Bill Christopher 
        met with LBP who traveled to Japan to try to visit his 
        daughter.
  <bullet> October 9, 2009: *Fukuoka consular officer visits a LBP 
        arrested for allegedly kidnapping minors. This is the fourth 
        jail visit since the September 28 incident.
  <bullet> October 9, 2009: *Diplomatic Note sent to MOFA requesting 
        assistance arranging a welfare and whereabouts (w/w) visit with 
        LBP's children. LBP's ex-wife turned down request during phone 
        call with Fukuoka staff on Oct 7.
  <bullet> October 12, 2009: A/S Campbell raised the Hague Convention 
        during a lunch with Ministry of Defense (MOD) and MOFA 
        counterparts. He advocated for Japan to accede to the 
        convention. Mr. Mitoji Yabunaka, Deputy FM, and Kazuyoshi 
        Umemoto, DG First North American Affairs Bureau, were the 
        ranking Japanese officials present.
  <bullet> October 14, 2009: Embassy Tokyo Political section's Deputy 
        Chief, Marc Knapper, met with Diet Member Edano to discuss the 
        parental abduction issue.
  <bullet> October 15, 2009: *CG Ray Baca, ACS Chief Bill Christopher 
        met with MOFA Director to follow up on Embassy's note verbale 
        requesting assistance arranging a consular visit with LBP's 
        children. MOFA stated they would contact the ex-wife. During 
        the meeting MOFA said LBP would be released that same day.
  <bullet> October 15, 2009: *Fukuoka Consular Officer Jay Avecilla 
        confirms that the LBP was released from jail.
  <bullet> October 16, 2009: During a meeting with Diet member Yorihisa 
        Matsuno (Deputy Chief Cabinet Secretary) Embassy Tokyo's Deputy 
        Political Counselor noted that Ambassador Roos is actively 
        pursuing the parental abduction issue.
  <bullet> October 16, 2009: Ambassador Roos, accompanied by six 
        ambassadors and one deputy head of mission from other embassies 
        in Japan, demarched new Minister of Justice, Keiko Chiba, on 
        IPCA.
  <bullet> October 19, 2009: CG Ray Baca, ACS Chief Bill Christopher, 
        and Deputy ACS Chief Joe Koen met with Tokyo based Left Behind 
        Parents.
  <bullet> October 19, 2009: Ambassador Roos during a courtesy call on 
        October 19 raised IPCA with Minister Mizuho Fukushima (State 
        Minister for Consumer Affairs, Food Safety, Declining 
        Birthrate, and Gender Equality).
  <bullet> October 20, 2009: Ambassador Roos urged Diet leadership to 
        make progress on IPCA. Diet Upper House President Eda, Upper 
        House Vice President Akiko Santo and Upper House International 
        Affairs Bureau Head Ikuo Idaka attended the meeting.
  <bullet> October 22, 2009: Principal Deputy Assistant Secretary 
        Joseph Donovan raised IPCA with Mr. Koji Tomita, Deputy DG, 
        North American Affairs Bureau.
  <bullet> October 28, 2009: CA/OCS/CI Director Michael Regan, CA/OCS/
        CI Ann McGahuey, Abductions Unit Chief Marco Tedesco, and Japan 
        Desk Political Officer Todd Campbell continued negotiations 
        related to the formation of working group to address the Hague 
        Convention and resolution of current IPCA cases. Legal Attache 
        Yoshihiro Ohara, Consul Kiyoshi Itoi, 2nd Secretary Zenichiro 
        Uemura, 3rd Secretary Makiko Asami represented the Japanese 
        Embassy.
  <bullet> October 29, 2009: DCM James Zumwalt and Embassy officials 
        briefed new DPJ Diet members on USG policies. Consular briefing 
        including IPCA.
  <bullet> October 29, 2009: *MOFA called ACS Chief to inform Consulate 
        Fukuoka that a LBP's ex-wife (the Taking Parent) told MOFA she 
        would accept a consular visit. MOFA contacted TP in response to 
        note verbale sent by Embassy after TP denied Fukuoka's previous 
        request for consular visit.
  <bullet> October 30, 2009: Briefing given to new DPJ Diet members 
        about USG policies, including IPCA, by DCM James Zumwalt and 
        representatives from Embassy sections.
  <bullet> November 5, 2009: A/S Campbell and Ambassador Roos urged 
        Japan to take the initiative, and told MOFA officials that 
        Japan must develop a roadmap to accede to the Hague, find a way 
        to resolve existing abduction cases, and develop a framework 
        for visitation in Japan which is enforceable. A/S Campbell 
        offered to have CA/OCS/CI trainers come to Japan to provide 
        training to MOFA officers.
  <bullet> November 10, 2009: Deputy Chief, ACS Koen participated in 
        meeting to plan multilateral demarches on GOJ by represented 
        embassies and to plan a spring 2010 symposium on IPCA and Hague 
        Convention. Consular officials from the Embassies of Canada, 
        Australia, Italy, France, and Spain were present.
  <bullet> November 11, 2009: Secretary Clinton raised IPCA in Japan 
        with FM Okada on the sidelines of the 2009 Asia-Pacific 
        Economic Cooperation (APEC) forum in Singapore.
  <bullet> November 13, 2009: A/S Campbell, CG Baca, Deputy CG 
        Wakahiro, Deputy ACS Chief Koen meet to discuss GOJ amenability 
        to Hague accession; strategy for engaging the GOJ; and near-
        term prospects for improving conditions for LBPs.
  <bullet> November 17, 2009: Deputy ACS Chief Koen meets with new Diet 
        member who has shown interest in IPCA issues. Discussion of 
        future Diet roundtables on the issue, March 2010 IPCA 
        symposium.
  <bullet> December 8, 2009: ACS Chief Christopher meets with MOFA 
        Officials to discuss purpose of newly established Division for 
        Issues Related to Child Custody (DIRCC). DIRCC is coordinating 
        body of Policy Bureau, Legal Affairs Bureau, Consular Bureau, 
        and North American and Europe regional bureaus. Its nine 
        members are from these bureaus.
  <bullet> December 9, 2009: Embassy Officials Meeting to plan 
        multilateral demarches on Japanese Foreign Minister and Prime 
        Minister by represented embassies and to plan a spring 2010 
        symposium on IPCA and Hague Convention.
  <bullet> December 11, 2009: Ambassador Roos meets with the Japan 
        Federation of Bar Associations (JFBA). Ambassador urged JFBA to 
        press the GOJ to accede to the Hague Convention. Ambassador 
        offered Embassy assistance to answer JFBA questions or 
        concerns.
  <bullet> December 15, 2009: CG Ray Baca, ACS Chief Bill Christopher 
        meet with MOFA's Director of new Division for Issues Related to 
        Child Custody.
  <bullet> December 15, 2009: CA/OCS/CI Director Michael Regan, CA/OCS/
        CI Ann McGahuey, Japan Desk Political Officer Todd Campbell 
        continue negotiations related to the formation of working group 
        to address the Hague Convention and resolution of current IPCA 
        cases. Legal Attache Yoshihiro Ohara, Consul Kiyoshi Itoi, 2nd 
        Secretary Zenichiro Uemura represent the Japanese Embassy.
  <bullet> December 17, 2009: Ambassador Roos raised IPCA during 
        meeting with former Prime Minister Yasuo Fukuda.
  <bullet> December 22, 2009: Ambassador Roos raised IPCA during dinner 
        he hosted for FM Okada.
  <bullet> January 6, 2010: Ambassador Roos, CG Ray Baca, ACS Chief, 
        Bill Christopher, and Deputy ACS Chief Joe Koen met with LBPs 
        in Japan. Ambassador updated the parents on Embassy and 
        Department actions. He welcomed their ideas for how the Embassy 
        can assist them and said that they could also provide input 
        during future meetings with CG.
  <bullet> January 7, 2010: CA/OCS/CI Director Michael Regan, Citizen 
        Services Specialist (Japan) Anthony Alexander, and EAP Japan 
        Desk Political Officer Todd Campbell finalized negotiations 
        related to the formation of working group to address the Hague 
        Convention and resolution of current IPCA cases. Legal Attache 
        Yoshihiro Ohara, Consul Kiyoshi Itoi, and 2nd Secretary 
        Zenichiro Uemura represented the Embassy of Japan.
  <bullet> January 11, 2010: During briefing about United States-Japan 
        relations, Senator Patty Murray and DCM James Zumwalt discussed 
        Embassy efforts regarding IPCA in Japan.
  <bullet> January 14, 2010: During briefing about United States-Japan 
        relations for Senator Inouye, CDA James Zumwalt, and CG Ray 
        Baca updated the Senator on Embassy efforts regarding IPCA in 
        Japan.
  <bullet> January 20-21, 2010: IPCA Training Seminar in Naha led by 
        officers from CA/OCS/CI and CA/PRI. U.S. Embassies Tokyo, 
        Manila, and Seoul; consulates in Naha, Osaka, Fukuoka, Nagoya, 
        Sapporo, Hong Kong, and Shanghai, and AIT Taipei attended. 
        Officials from U.S. military bases in Japan and Korea also 
        participated.
  <bullet> Week of January 21, 2010: Under Secretary of State for 
        Political Affairs William Burns raised child abduction issues 
        with Deputy Foreign Minister for Political Affairs Kenichiro 
        Sasae.
  <bullet> January 22, 2010: CG Ray Baca, ACS Chief Bill Christopher, 
        Deputy ACS Chief Joe Koen, CA/OCS/CI Ann McGahuey, CA/OCS/CI 
        Tony Alexander, CA/OCS/PRI Corrin Ferber meet with Japan based 
        LBPs.
  <bullet> January 22, 2010: CG Ray Baca, ACS Chief Bill Christopher, 
        CA/OCS/CI Ann McGahuey, CA/OCS/CI Tony Alexander, and CA/OCS/
        PRI Corrin Ferber attend meeting regarding setting up working 
        group to discuss individual cases. Mr. Koji Tomita, Deputy DG, 
        North American Affairs Bureau; Mr. Tomoyuki Yoshida, Director, 
        First North America Division; Mr. Masataka Okano, Director, 
        International Legal Affairs Division; Mr. Hisanori Yaegashi, 
        Director, Consular Policy Division and other Japanese officials 
        participated in the meeting.
  <bullet> January 22, 2010: ACS Chief Bill Christopher, CA/OCS/CI Ann 
        McGahuey, CA/OCS/CI Tony Alexander, CA/OCS/PRI Corrin Ferber, 
        and consular officer Megan Phaneuf met with Ministry of Justice 
        officials to discuss legal issues related to IPCA. MOJ 
        Officials Mr. Tomoyuki Tobisawa, counselor, Civil Affairs 
        Bureau; Mr. Fuminori Sano, Attorney, Civil Affairs Bureau 
        participated in the meeting
  <bullet> January 22, 2010: ACS Chief Bill Christopher, CA/OCS/CI Ann 
        McGahuey, CA/OCS/CI Tony Alexander, CA/OCS/PRI Corrin Ferber, 
        and consular officer Megan Phaneuf discussed Japanese passport 
        issuance requirements as a means to prevent IPCA (e.g., how an 
        American parent can request that a Japanese consulate in United 
        States not issue passport to his/her child). MOFA Officials Mr. 
        Masaru Hattori, Deputy Director, Passport Division; and Mr. 
        Takuma Inoue, Official, Passport Division, participated.
  <bullet> January 22, 2010: Press statement release following the 
        meeting of the working group that was established to address 
        issues related to cross-border child custody issues. The 
        statement communicated U.S. Government hopes that the working 
        group will provide a means to improve American parents' access 
        to and visitation with their children; facilitate visits with 
        children by U.S. consular officers; and explore ways to resolve 
        current child abduction cases.
  <bullet> January 25, 2010: Deputy CG Wakahiro, Deputy ACS Chief Koen; 
        CA/OCS/CI Ann McGahuey, CA/OCS/CI Tony Alexander, CA/OCS/PRI 
        Corrin Ferber meet with Japanese family law attorney Mikiko 
        Otani, who has written numerous newspaper articles supporting 
        Japan's accession to the Hague Convention on IPCA.
  <bullet> January 25, 2010: Deputy CG Wakahiro, Deputy ACS Chief Koen; 
        CA/OCS/CI Ann McGahuey, CA/OCS/CI Tony Alexander, CA/OCS/PRI 
        Corrin Ferber discuss Japan's family law system as it relates 
        to divorce, custody, and parental child abduction with Kyoto 
        University Law Professor.
  <bullet> January 29, 2010: A/S Campbell, A/S for Consular Affairs 
        Janice Jacobs, Deputy Assistant Secretary Michele Bond, CA/CI 
        Director Mike Regan, CA/CI Anthony Alexander, Japan Desk Deputy 
        Director Simon Schuchat, and Japan Desk Political Officer Todd 
        Campbell meet with 23 LBPs.
  <bullet> January 30, 2010: Ambassador Roos, accompanied by six 
        Ambassadors and one deputy head of mission from other embassies 
        in Japan, demarche Foreign Minister Katsuya Okada on IPCA. They 
        urged Japan to accede to the Hague Convention and take measures 
        to improve access for parents separated from their children.
  <bullet> February 2, 2010: A/S Campbell raised International Parental 
        Child Abduction with Vice FM Yabunaka, met with Japan-based 
        Left Behind Parents, and held a press conference during which 
        he publicly urged the GOJ to accede to the Hague and take steps 
        to resolve current cases.

    Question. Finally, the FY 2009 State Department Report on 
International Child Abduction states that there were 15 new cases 
involving 57 children for Japan. Please provide the committee with the 
total number of abducted U.S. children in Japan that the Department has 
on file, broken down by year as well.

    Answer. Since 1994, we have opened 202 cases involving 277 children 
abducted to or wrongfully retained in Japan. At the end of FY 2009, 75 
cases involving 103 U.S. children were still open. Our statistics 
reflect only children whose left-behind parents report their case to 
the Department of State's Office of Children's Issues; therefore, we 
cannot accurately estimate the actual number of abducted American 
children in Japan.
    A case remains open until the left-behind parent (LBP) reports a 
satisfactory resolution, we lose contact with the LBP and cannot locate 
him/her despite significant effort over a period of 1 year, or the 
child attains age 18, at which point the case is ``closed'' in 
Children's Issues, but transferred to our American Citizens Services 
(ACS) and Crisis Management office, which is colocated with Children's 
Issues and part of the same Directorate, Overseas Citizens Services. 
The Office of Children's Issues may continue to assist as requested.
    Of the 202 cases in Japan opened since 1994, 127 cases involving 
174 children have been closed: 19 because the children were voluntarily 
returned to the United States, 79 because of lack of response from or 
loss of contact with the LBP, 9 because they were transferred to ACS 
when the children attained age 18, and 20 for other reasons. Of the 
cases closed for other reasons, six cases withdrawn by the LBP, one was 
resolved because the taking parent had sole custody in the United 
States, two because the LBP lives in Japan, five because the child was 
not in Japan, one because the child only lived in Japan and a Japanese 
court order applied, one because the LBP accepted the Japanese court 
order granting custody to the taking parent, three because the child's 
U.S. citizenship was not confirmed, and one because the taking parent 
was granted sole custody in both the United States and Japan.
    Please note that the question appears to state incorrect numbers. 
The State Department's FY 2009 Report on International Child Abduction 
reported that in FY 2008, there were 37 new cases opened, involving 57 
U.S. children who were abducted from the United States to Japan or 
wrongfully retained there.
                                 ______
                                 

 Responses of Assistant Secretary Kurt Campbell to Questions Submitted 
                        by Senator Barbara Boxer

    Question. Hundreds of leftist politicians and political activists, 
journalists, and clergy members have been killed or abducted since 
President Arroyo came to power in 2001. With only 11 people convicted 
for 6 of these killings, how is the administration working to pressure 
the Philippine Government to properly investigate such killings and 
prosecute perpetrators?

    Answer. The United States takes allegations of extrajudicial 
killings (EJKs) and forced disappearances very seriously. Our Embassy 
in Manila, as well as senior officials in Washington, consistently 
raise these issues with Philippine Government interlocutors, urging 
greater progress toward investigating disappearances, eliminating the 
killings, and increasing prosecutions and convictions for their 
perpetrators. Secretary Clinton expressed our concern over EJKs when 
she met with the Philippine Foreign Secretary in Manila on November 12, 
2009. The Philippine Government appears well aware that EJKs threaten 
its international standing and that concern about such killings has 
contributed to pressure to end preferential treatment the Philippines 
receives under the U.S. Generalized System of Preference.
    Our message is reinforced at the working level and through targeted 
assistance programs sponsored by the U.S. Agency for International 
Development, the State Department's Bureau of Democracy, Human Rights 
and Labor (DRL), and the Bureau of International Narcotics and Law 
Enforcement Affairs (INL), aimed at building Philippine capacity to 
conduct proper investigations and effectively prosecute cases. This 
assistance includes: training on the investigation and prosecution of 
EJKs, forced disappearances, and torture; workshops providing human 
rights training for judges, public attorneys, police and military 
personnel, and other government officials; and training and materials 
to enhance the capacity of journalists to produce high-quality, 
accurate reports on human rights investigations and cases, thereby 
promoting greater public awareness.
    The Philippine Government has taken numerous and significant 
measures to address the problem of EJKs. The Philippine Government in 
2006 established a police task force (Task Force Usig) specifically 
charged with investigating extra-judicial killings of journalists and 
political and labor activists. In 2009, the government expanded this 
task force's authority to include investigations into killings of 
foreign nationals, established and strengthened regional branches, and 
funded a program to provide rewards for information leading to the 
resolution of EJK cases.
    The number of killings has decreased after peaking in 2006. 
However, even one EJK is one too many, and we will continue to 
highlight at every opportunity our concerns about human rights and 
extrajudicial killings and our efforts to help the Philippines improve 
its judicial capacity and prosecutorial effectiveness.

    Question. It is my understanding that to date, no member of the 
military who was accused of carrying out an extrajudicial killing while 
on active duty has been brought to justice. How is the administration 
working to pressure the Philippine Government to investigate members of 
the military for these crimes, ensure that all military investigations 
are transparent, and hold senior military officials accountable under 
``command responsibility?''

    Answer. The United States regards allegations of Philippine 
military involvement in human rights abuses and EJKs as a very serious 
matter, and will continue to press the Philippine Government for 
greater progress in holding the perpetrators of such crimes to account 
and promoting a climate of accountability.
    Officials of Task Force Usig, which is responsible for EJK 
investigations, have told U.S. Embassy officials that nine EJK cases 
involving military and paramilitary elements as suspects have been 
filed before the courts since 2001, and six cases involving police 
personnel have been filed for prosecution (not including ongoing 
efforts against police officials involved in the November 2009 
Maguindanao massacre). In 2008, Armed Forces of the Philippines 
Corporal Rodrigo Billones was sentenced to a minimum of 54 years in 
prison for the 2000 disappearance of six suspected leftists in Agusan 
del Sur province.
    In addition to the law enforcement and judicial assistance programs 
cited above, our ongoing military assistance programs are designed to 
enhance professionalism, strengthen the concept of command 
responsibility, and encourage respect for human rights. U.S. military 
personnel provide human rights training, embedded in military training 
exercises, to thousands of Philippine soldiers each year. We continue 
to highlight at every opportunity our concerns about human rights 
abuses and extrajudicial killings, including allegations of Philippine 
military involvement of these crimes, and seek to identify additional 
ways the U.S. Government can provide assistance.

    Question. What is the government doing to push the Philippine 
central government to ensure that investigations into the November 23, 
2009, Maguindanao massacre--in which at least 57 people were killed, 
allegedly by paramilitary forces acting at the direction of local 
government officials--are pursued up to the most senior levels?

    Answer. In the immediate aftermath of the massacre, the U.S. 
Ambassador to the Philippines spoke with leading members of the 
Philippine Cabinet and urged a thorough, rapid, and transparent 
investigation.
    The Philippine Government moved quickly to take into custody 
leading suspects. Virtually all police officials in the province were 
transferred, to preclude interference in the investigation. Legal 
proceedings are now underway against the suspected leader of the 
massacre, while authorities have charged more than a half-dozen police 
officials with multiple murders in the massacre. We will continue to 
monitor the situation closely, and underscore to the Philippine 
Government the need for a speedy, fair, and transparent trial of those 
responsible, as well as ongoing efforts to prevent further violence.

    Question. What steps will the administration take to urge the 
Burmese junta to release the 2,100 political prisoners ahead of 
elections, including U.S. citizen Nyi Nyi Aung?

    Answer. Securing the release of all political prisoners in Burma 
remains one of the administration's fundamental goals in Burma. We 
remain deeply concerned by the growing number of political prisoners 
held by the regime, including much of the opposition leadership. We 
have underscored to Burmese authorities the importance of making 
meaningful progress on this issue in order to allow for the possibility 
that national elections, planned for this year, are conducted in an 
inclusive and therefore credible fashion. We will continue to raise the 
issue of all of Burma's political prisoners in our engagement with 
Burmese authorities, and continue to urge other governments with 
influence to do the same.

    Question. If bilateral talks fail, what further steps will the 
administration take to pressure the Burmese regime, such as imposing 
additional targeted financial sanctions?

    Answer. Our dialogue with the Burmese leadership is at a very early 
stage. We will examine conditions in Burma and evaluate the progress on 
our core concerns as this process moves forward. In addition, we 
continually evaluate the various tools we have available to advance our 
goals in Burma, including sanctions. We reserve the option of 
tightening sanctions on the regime and its supporters in the future as 
appropriate.

    Question. When will the administration appoint a Burma Special 
Representative and Policy Coordinator as stipulated in the Lantos JADE 
Act of 2008?

    Answer. The administration places a high priority on the 
appointment of a Special Representative and Policy Coordinator for 
Burma, as required by the JADE Act, and intends to appoint an 
individual soon.

    Question. When will the administration issue a report on military 
and intelligence aid to Burma, including on the provision of weapons of 
mass destruction and related materials to Burma, as stipulated in the 
Lantos JADE Act of 2008?

    Answer. The report is in the final stages of the clearance process. 
We expect to deliver it to Congress shortly.

    Question. On November 5, 2009, I sent a letter to President Obama 
along with Senator Corker and 20 of our Senate colleagues asking him to 
raise the issue of international parental child abduction with Japanese 
Prime Minister Yukio Hatoyama during his November visit there. I 
understand that the Department of State is preparing a response, which 
I have yet to receive. When will I receive a response?

    Answer. The response was sent on March 4, 2010, by the Bureau of 
Legislative Affairs to Senator Boxer's office. Ariana Reks, legislative 
aide to Senator Boxer, has confirmed the response was received.

    Question. What have you learned about the Japanese Foreign 
Ministry's new division to address international parental child 
abductions? What has the new division accomplished to date? Have you 
met with Japanese officials within this new division?

    Answer. In December 2009, the Japanese Foreign Ministry established 
the Division for Issues Related to Child Custody (DIRCC) to study 
accession to the Hague Convention and to coordinate issues within the 
Ministry of Foreign Affairs (MOFA). The DIRCC comprises nine members 
from the Legal Affairs Bureau, Consular Bureau, and North American and 
European regional bureaus.
    On November 15, 2009, Embassy Tokyo Consul General Ray Baca and 
American Citizen Services Chief William Christopher met with MOFA's 
Director of DIRCC to discuss the division's future functions. They were 
informed that the division would study Japan's accession to the Hague 
Convention, and how to address issues related to cross-border child 
custody issues. On January 22, Embassy and Bureau of Consular Affairs 
officials held the first formal meeting with DIRCC officials in Tokyo. 
We expect the working group will provide a means to improve parents' 
access to and visitation with their children; facilitate visits with 
children by U.S. consular officers; and explore ways to resolve current 
child abductions cases as well as encourage Japan to accede to the 
Hague.

    Question. What progress have you made in your discussions with the 
Japanese on Japan's accession to the Hague Convention on the Civil 
Aspects of International Child Abduction? What progress have you made 
in conveying U.S. concern to the Japanese regarding the current cases 
of abducted American children? Have you been successful in engaging the 
Japanese Ministry of Justice on this issue?

    Answer. The Embassy, the Bureau of Consular Affairs, and the Bureau 
of East Asian and Pacific Affairs continue to raise this issue during 
meetings with Japanese officials at all levels. Japanese officials have 
consistently stated that:

  <bullet> MOFA and MOJ are studying the Hague Convention.
  <bullet> Japanese family law is not consistent with the Hague 
        Convention.
  <bullet> The Diet would have to pass the required legislation to 
        change domestic law.

    On October 16, 2009, Ambassador Roos and the Ambassadors of Canada, 
France, Italy, New Zealand, Spain, the United Kingdom, and the deputy 
head of mission of Australia, demarched the new Minister of Justice 
(MOJ) about International Child Abduction. They urged Japan to accede 
to the Hague Convention and take measures to improve access for parents 
separated from their children. A joint press statement was issued by 
the eight embassies following the meeting. There was good media 
coverage of the meeting and the statement in Japan.
    On January 22, 2010, American Citizen Services Chief William 
Christopher and staff from the Office of Children's Issues met with MOJ 
officials to discuss Japan's legal statutes as they relate to 
International Parental Child Abduction (IPCA), in particular the legal 
definition of domestic violence, how courts determine custody in 
divorce cases and mechanisms used to enforce court orders.
    On January 30, 2010, Ambassador Roos, accompanied by the same six 
ambassadors and one deputy head of mission from other embassies in 
Japan, demarched Minister of Foreign Affairs Katsuya Okada about IPCA. 
The Ambassadors urged Japan to accede to the Hague Convention and to 
take measures to improve access for parents separated from their 
children. Minister Okada expressed appreciation for the meeting and 
stated that the new government must decide how to deal with IPCA. There 
was good media coverage of the meeting and the statement in both Japan 
and overseas.
    Assistant Secretaries Kurt M. Campbell and Janice L. Jacobs 
continue meetings with Left Behind Parents at regular 2- to 3-month 
intervals. On February 2, 2010, EAP Assistant Secretary Kurt Campbell 
met with Left Behind Parents in Japan. At the end of the meeting, he 
held a press conference where he spoke about International Parental 
Child Abduction. We plan to hold our next meeting with Left Behind 
Parents in early April.

    Question. What benchmarks would you like to see the Japanese 
achieve on this issue, and in what timeframe?

    Answer. At the earliest opportunity:

  <bullet> We urge the Government of Japan to establish avenues for 
        resolving cases of wrongful removal and retention of children 
        from the United States to Japan.
  <bullet> To prevent child abduction by Japanese parents, we urge 
        Japan to require that both parents sign the child's passport 
        application, or otherwise consent in writing to the issuance of 
        a Japanese passport to a child.
  <bullet> We call for Japan's accession to the Hague Convention on 
        Civil Aspects of International Child Abduction.
                                 ______
                                 

 Responses of Assistant Secretary of State Kurt Campbell to Questions 
                  Submitted by Senator James M. Inhofe

    Question. For over 60 years, the United States and Taiwan have 
maintained a close partnership as Taiwan remains one of our strongest 
allies in the Asia Pacific region. The United States has a longstanding 
commitment, as laid out in the Taiwan Relations Act (TRA), to aid our 
friends in their capabilities to defend themselves against aggressive 
neighbors. Additionally, it is vital that a peaceful environment exists 
in the Strait of Taiwan, and the ability of Taiwan to maintain its 
defense rests heavily upon its ability to acquire defense articles.
    In October 2008, I was pleased that former President George W. Bush 
approved the sale of 6.5 billion dollars' worth of weapons to Taiwan. 
For the past 3 years, Taiwan has submitted several requests to the 
United States for the sale of F-16 C/D Block 50/52 fighters, diesel-
electric submarines, Blackhawk utility helicopters, and the PAC-III 
antimissile defense system. However, none of these requests have been 
accepted and are all currently pending.

  <bullet> Is the Obama administration committed to fulfilling the 
        U.S.'s pledge to Taiwan under the TRA by continuing to provide 
        Taiwan with defense articles?
  <bullet> Does the administration have a plan to approve Taiwan's 
        pending defense requests?
  <bullet> Do you support selling these pending items to Taiwan?

    Answer. The Obama administration's commitment to fulfilling the 
terms of the Taiwan Relations Act is unwavering.
    The administration intends to continue to make available defense 
articles and services necessary to enable Taiwan to maintain a 
sufficient self-defense capability. On January 29, in accordance with 
the Taiwan Relations Act (TRA), the administration formally notified 
Congress of its intent to sell to Taiwan UH-60 Black Hawk utility 
helicopters; Patriot Advanced Capability-3 (PAC-3) firing units, 
training unit, and missiles; Multifunctional Information Distribution 
Systems (MIDS) to support Taiwan's Command, Control, Communications, 
Computers, Intelligence, Surveillance, and Reconnaissance (C4ISR) 
communications system; Osprey-class mine hunting ships; and Harpoon 
telemetry missiles.
    F-16 C/D aircraft and a diesel submarine design were not notified 
at this time. The administration has not denied any of Taiwan's 
requests, and it continues to evaluate Taiwan's defense needs.
                       taiwan and icao membership
    Question. In May 2009, the World Health Organization (WHO) 
Director-General invited Taiwan's Health Minister to lead a delegation 
to attend the 62nd World Health Assembly as an observer. This decision 
has opened the door for more involvement for Taiwan in other UN 
agencies, programs, and conventions as well.
    Recently, Taiwan has expressed its desire to participate in the 
International Civil Aviation Organization (ICAO). Taiwan is a key air 
transport hub in the Asia Pacific region serving more than 1 million 
flights and over 40 million passengers each year. Taiwan's lack of 
participation in the ICAO results in its incapability to access 
information regarding important aviation issues, creates a gap in the 
global aviation network, and prevents it to receive ICAO technical 
assistance.

  <bullet> Do you support Taiwan's observer status in the ICAO?
  <bullet> Could you describe what steps, if any, the Obama 
        administration is taking to assist Taiwan in its effort to gain 
        meaningful participation in ICAO?

    Answer. The United States supports Taiwan's membership in 
international organizations where statehood is not a prerequisite and 
supports meaningful participation by Taiwan in organizations where 
statehood is required. Taiwan's ability to gain official status in ICAO 
or other United Nations organizations is affected by the fact that 
Taiwan is not a Member State of the United Nations and does not have 
observer status at the United Nations General Assembly.
    It is U.S. policy to support Taiwan's involvement in international 
organizations, processes, agreements, and gatherings wherever possible. 
Our overall goal is to ensure that Taiwan has access to information on 
international standards, restrictions, quotas, etc., so that it can 
comply with international regulations and guidelines and benefit from 
international assistance and advice.
    We are aware that Taiwan wishes to expand its meaningful 
participation in ICAO. Given the volume of flights through Taiwan's 
airspace, there are important practical reasons to support the island's 
inclusion, in some form, in the work of ICAO entities. The United 
States supports this objective.
    Rule 5 of the Standing Rules of Procedure for the ICAO Assembly 
declares that ``Non-Contracting States and international organizations 
duly invited by the Council, or by the Assembly itself, to attend a 
session of the Assembly may be represented by observers.'' Comprised of 
36 Member States (including the United States), the Council is ICAO's 
governing body that runs the Organization between sessions of the 
triennial Assembly. The practical question is whether Taiwan can obtain 
an invitation from the Council or Assembly. The ICAO Council and 
Assembly both operate by consensus on a matter such as this and, to 
date, there is no agreement among ICAO Member States on inviting Taiwan 
to participate as an observer.
    Taiwan receives information on ICAO safety, security, and 
environmental standards and other matters by way of the membership of 
its airline, China Airlines, in the International Air Transport 
Association (IATA), which is an active observer in ICAO meetings on 
behalf of its hundreds of member airlines.
    The U.S. Mission to ICAO in Montreal has, and will continue to 
respond to inquiries for information from Taiwan representatives in 
Canada about the Organization, to the extent that they seek a better 
understanding of the structure and rules of procedures of ICAO, 
including those of the Assembly and the Council.

                                  <all>

</pre></body></html>
